<html>
<title> - HOW EFFECTIVELY ARE FEDERAL, STATE AND LOCAL GOVERNMENTS WORKING TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   HOW EFFECTIVELY ARE FEDERAL, STATE AND LOCAL GOVERNMENTS WORKING 
   TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 28, 2002

                               __________

                           Serial No. 107-163

                               __________

       Printed for the use of the Committee on Government Reform







  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                _________

                       U. S. GOVERNMENT PRINTING OFFICE
84-815                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001
















                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DAN MILLER, Florida                  MAJOR R. OWENS, New York
DOUG OSE, California                 PAUL E. KANJORSKI, Pennsylvania
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                  Bonnie Heald, Deputy Staff Director
                        Justin Paulhamus, Clerk
           David McMillen, Minority Professional Staff Member


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 28, 2002...................................     1
Statement of:
    Baca, Lee, sheriff, Los Angeles County; Joseph E. Tait, 
      executive vice president and chief operating officer, 
      Metropolitan Water Department; Casey Chel, disaster 
      preparedness manager, city of Long Beach; Terry L. Harbour, 
      chief, Long Beach Fire Department; Ellis Stanley, Emergency 
      Management Services, city of Los Angeles; Bernie Wilson, 
      Los Angeles International Airport Police Department; and 
      Larry Keller, executive director, Port of Los Angeles......    89
    Castleman, Ron, Regional Director, Region 6, Federal 
      Emergency Management Agency; Kevin Yeskey, Director, 
      Bioterrorism Response Program, Centers for Disease Control 
      and Prevention; Ronald L. Iden, Assistant Director in 
      Charge, Los Angeles Division, Federal Bureau of 
      Investigation; Patricia Dalton, Director, Strategic Issues, 
      U.S. General Accounting Office; Dallas Jones, director, 
      Governor's Office of Emergency Services, State of 
      California; and Diana Bonta, director, California 
      Department of Health Services, State of California.........     6
Letters, statements, etc., submitted for the record by:
    Baca, Lee, sheriff, Los Angeles County, prepared statement of    92
    Bonta, Diana, director, California Department of Health 
      Services, State of California, prepared statement of.......    70
    Castleman, Ron, Regional Director, Region 6, Federal 
      Emergency Management Agency, prepared statement of.........     9
    Chel, Casey, disaster preparedness manager, city of Long 
      Beach, prepared statement of...............................   101
    Dalton, Patricia, Director, Strategic Issues, U.S. General 
      Accounting Office, prepared statement of...................    38
    Harbour, Terry L., chief, Long Beach Fire Department, 
      prepared statement of......................................   105
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Iden, Ronald L., Assistant Director in Charge, Los Angeles 
      Division, Federal Bureau of Investigation, prepared 
      statement of...............................................    28
    Jones, Dallas, director, Governor's Office of Emergency 
      Services, State of California, prepared statement of.......    60
    Millender-McDonald, Hon. Juanita, a Representative in 
      Congress from the State of California, prepared statement 
      of.........................................................   118
    Tait, Joseph E., executive vice president and chief operating 
      officer, Metropolitan Water Department, prepared statement 
      of.........................................................    97
    Yeskey, Kevin, Director, Bioterrorism Response Program, 
      Centers for Disease Control and Prevention, prepared 
      statement of...............................................    17















   HOW EFFECTIVELY ARE FEDERAL, STATE AND LOCAL GOVERNMENTS WORKING 
   TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

                              ----------                              


                        THURSDAY, MARCH 28, 2002

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                   Los Angeles, CA.
    The subcommittee met, pursuant to notice, at 10 a.m., at 
the Los Angeles City Hall, Board of Public Works Hearing Room, 
200 North Spring Street, Los Angeles, CA, Hon. Stephen Horn 
(chairman of the committee) presiding.
    Members present: Representatives Horn, Millender-McDonald 
and Watson.

  Staff present: J. Russell George, staff director and chief counsel; 
Bonnie Heald, deputy staff director; Justin Paulhamus, clerk; and David 
             McMillen, minority professional staff member.

    Mr. Horn. A quorum being present, the hearing of the 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations will come to order.
    On September 11, 2001, the world witnessed the most 
devastating attacks ever committed on U.S. soil. Despite the 
damage and enormous loss of life, the attacks failed to cripple 
this Nation. To the contrary, Americans have never been more 
united in their fundamental belief in freedom and their 
willingness to protect that freedom.
    The diabolical nature of these attacks and then the deadly 
release of anthrax sent a loud and clear message to all 
Americans: We must be prepared for the unexpected; we must have 
the mechanisms in place to protect this Nation and its people 
from further attempts to cause massive destruction.
    The aftermath of September 11th clearly demonstrated the 
need for adequate communication systems and rapid deployment of 
well-trained emergency personnel. Yet despite billions of 
dollars in spending on Federal emergency programs, there 
remains serious doubts as to whether the Nation is equipped to 
handle a massive chemical, biological or nuclear attack.
    Today, the subcommittee will examine how effectively 
Federal, State and local agencies are working together to 
prepare for such emergencies. We want those who live in the 
great State of California and the good people of Los Angeles 
and Long Beach to know that they can rely on these systems 
should the need arise.
    We are fortunate to have witnesses today whose valuable 
experience and insight will help the subcommittee better 
understand the needs of those on the frontline. We want to hear 
about their capabilities and their challenges, and we want to 
know what the Federal Government can do to help. We welcome all 
of our witnesses, and we look forward to their testimony.
    I am delighted to have today Representative Watson as the 
ranking Democrat on this committee. She is a member of the full 
Committee on Government Reform and has done a wonderful job in 
her freshman year and doing wonderful work.
    We are glad to have you here, Diane, and if you would like 
to have an opening statement, please do.
    [The prepared statement of Hon. Stephen Horn follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Watson. Thank you so much, Chairman Horn, for including 
me in this meeting and for holding these field hearings here in 
southern California on terrorism response preparedness. This 
hearing provides us an opportunity to hear from the people in 
the State and those at local level who are responsible for 
public safety in the event of a terrorist attack.
    Here in Los Angeles we know that we can count on these 
brave men and women who work to protect our people and our 
infrastructure. We know this because we have faced calamities 
before, lots of them, and the lessons that we have learned to 
prepare for natural disasters mean that our State and our local 
first-responders possess valuable real-world experience. This 
is critical as you prepare to prevent or to face potential 
manmade disasters. These experiences can also be a value to 
other States and communities across the Nation as they seek to 
develop terrorism response plans of their own.
    This has not been why response plans developed for natural 
disasters can be applied without modification to respond to 
this new kind of terrorism. Preparation for response to a 
terrorist incident has its own unique needs. The State of 
California, under the leadership of Governor Gray Davis, is to 
be commended for taking action as early as 1999 to approve a 
terrorism response plan. September 11th only proved the 
foresight of California's efforts.
    I believe that many of California's efforts can serve as a 
model for other communities and for the Nation as a whole. For 
example, even before September 11th, California had to take a 
hard look at various threats and risks posed to our State by 
terrorism, committing to employ our resources in the most 
constructive way. Our Federal Government still has not 
conducted any sort of comprehensive threat and risk assessment. 
As a result, the President has proposed large increases in 
homeland security funding without objectively assessing the 
best way to send these funds. I hope to work over the coming 
year with Chairman Horn and my other colleagues on the 
Government Reform Committee to persuade the administration to 
conduct just that--a comprehensive national terrorism threat 
and risk assessment.
    But despite the differences between emergency planning for 
natural disasters and emergency planning for terrorism, one 
thing is for sure: Both require thoughtful and ample resources 
and comprehensive planning. I have every confidence that our 
witnesses here will describe to us the detailed results of 
their thoughtful planning. Hopefully we can then take the 
fruits of our labor back to Washington to press for the ample 
Federal resources necessary to keep our communities prepared to 
prevent or respond to terrorism.
    And, Mr. Chair, thank you very much, and I want to thank 
our witnesses for coming today to share their insights. I will 
be listening closely.
    Mr. Horn. Thank you. And I now will yield 5 minutes to Jack 
Chois the councilmember for the 5th District of the city of Los 
Angeles. And we are glad to have you here.
    Mr. Chois. Thank you very much, Chairman Horn and 
Congressman Watson, for bringing the attention of the Congress 
of the United States here to Los Angeles, and I want to welcome 
both of you and the members of your staffs to Los Angeles City 
Hall. It means a lot to me personally that you would do this, 
because threat preparedness has been my highest priority for 
the past several months, and we need all the help we can get 
locally, we need all the help we can get to raise attention and 
awareness of these issues. And that is what you are doing by 
your presence here today. It is extraordinarily important to 
those of us in local government who are working on these issues 
day in and day out to know your commitment and your support.
    I just want to tell you very briefly about some of our 
accomplishments and some of our needs. I was privileged to 
create our Threat Preparedness Task Force in Los Angeles over 
the past several months, and we did a needs assessment, and we 
have filled some of those needs. We increased funding for 
certain HAZMAT capabilities, we increased funding for certain 
bomb squad capabilities in Los Angeles, and I believe I am 
going to have the support of my colleagues on the city council 
within the next week, and we will create a Threat Preparedness 
Trust Fund for the city of Los Angeles. So we are doing 
important work, but the needs are nonetheless still great to 
address briefly the topics that you have set forth for this 
hearing: the nuclear, biological and chemical areas.
    Mr. Chairman, I will tell you that on Monday I had lunch 
with our HAZMAT squad just a few blocks from here, one of our 
two operating full-time HAZMAT squads in the city of Los 
Angeles. We have a third one that is being operated on an ad 
hoc basis. On their HAZMAT vehicles, they have sophisticated 
nuclear detection capabilities, sophisticated nuclear detection 
equipment. If you go on to one of our regular fire trucks, Mr. 
Chair, you will see a big, clunky, old box, and on the bottom 
of it are the letters ``CD,'' Civil Defense. It is a 1950's-era 
device that is unfortunately up to the current threat that we 
face in an era where people such as yourselves are confronting 
the task of planning for dirty bombs and radiological releases. 
We have tremendous needs there, both in capabilities and plans.
    In the area of a mechanical threat, we need another HAZMAT 
squad in the city of Los Angeles at a minimum. That's a matter 
of a couple million dollars, and it is a real struggle here in 
this building in this era of diminishing budget to secure those 
funds, and that is the area where we desperately need help.
    And in the area of biological preparedness, frankly, given 
the tentative and teetering state of our public health system 
in the Los Angeles area, we are in desperate need of Federal 
assistance, Federal planning, Federal funding, and indeed a 
national effort is no doubt called for. I am sure that both of 
you would agree with me that while a national solution is 
called for here, a Federal solution is not what we need, 
because the first-responders are local, and the first response 
will always be up to local government.
    That is what I and my colleagues here spend a lot of time 
on. You have a wonderful panel. In particular, I should note to 
you that you will be hearing from Sheriff Lee Baca, whose 
efforts in creating the Terrorism Early Warning Group in Los 
Angeles, an accounting organization which I have worked to get 
the city of Los Angeles to participate in and fully fund, I 
think is a model for the Nation in terms of terrorism response, 
intelligence and coordination.
    Thank you very much for being here, Mr. Chairman.
    Mr. Horn. Well, we thank you very much for taking this 
time, because you have a real respect for what these things are 
all about, and we have really used the city of Los Angeles and 
the County of Los Angeles on what we have done over the years 
in earthquakes. We now get the rest of the Nation to face-up to 
something that is not just earthquakes, and this panel will 
bring out a lot of those things.
    The way we operate is that we have the experts from the 
governmental areas in which we work, and we go right down the 
line, and we don't question them until the whole panel has got 
it on the table. And then we will go down the line with each 
member, 5 minutes at a time, questioning.
    At this time, if you don't mind, we'll have all witnesses 
rise and raise their right hand to accept the oath.
    [Witnesses sworn.]
    Mr. Horn. So we start with Mr. Ron Castleman, Regional 
Director, Region 6. He is based in Dallas, TX for the Federal 
Emergency Management Agency [FEMA], dear to us all, and I want 
to thank your work. You have been with us already in two of our 
hearings, and we are glad to have you because you always add 
something new to it. And we have great appreciation for what 
FEMA has done to help us with the Los Angeles River. When I 
went to Congress, that was a real problem, and thanks to the 
Corps of Engineers and thanks to FEMA we have got that done, 
and it was done within the money that was needed, and it is now 
one that won't get over the banks and thousands of people will 
not have their homes harmed. So we thank FEMA for what it has 
done in cooperation.
    Mr. Castleman.

   STATEMENTS OF RON CASTLEMAN, REGIONAL DIRECTOR, REGION 6, 
 FEDERAL EMERGENCY MANAGEMENT AGENCY; KEVIN YESKEY, DIRECTOR, 
BIOTERRORISM RESPONSE PROGRAM, CENTERS FOR DISEASE CONTROL AND 
 PREVENTION; RONALD L. IDEN, ASSISTANT DIRECTOR IN CHARGE, LOS 
  ANGELES DIVISION, FEDERAL BUREAU OF INVESTIGATION; PATRICIA 
  DALTON, DIRECTOR, STRATEGIC ISSUES, U.S. GENERAL ACCOUNTING 
OFFICE; DALLAS JONES, DIRECTOR, GOVERNOR'S OFFICE OF EMERGENCY 
   SERVICES, STATE OF CALIFORNIA; AND DIANA BONTA, DIRECTOR, 
 CALIFORNIA DEPARTMENT OF HEALTH SERVICES, STATE OF CALIFORNIA

    Mr. Castleman. Thank you very much, Mr. Chairman. For the 
record, I am Ron Castleman, regional director, Region 6 of the 
Federal Emergency Management Agency, and it is a pleasure to be 
here today. I am a former resident of Los Angeles County, so I 
am just glad to be back here.
    I want to discuss how FEMA is assisting State and local 
governments to prepare for potential terrorist attacks. FEMA's 
vision is to lead the Nation in preparing for, responding to 
and recovering from disasters. Our success requires close 
coordination with local, tribal, State and Federal agencies as 
well as volunteer organizations. The Federal Response Plan 
outlines the process by which Federal departments and agencies 
respond as a cohesive team to all types of disasters in support 
of State, tribal and local governments. The plan has been 
tested on numerous occasions since its adoption in 1992, and 
the Federal Response Plan again worked well in response to the 
terrorist events of September 11, 2001.
    FEMA's preparedness programs provide financial, technical 
planning, training and exercise support to State, local and 
tribal Americans. The programs are designed to strengthen 
capabilities to protect public health, safety and property both 
before and following a disaster.
    As you know, the Gilmore Commission issued its second 
report in December 2000, stressing the importance of giving 
State and first-responders a single point of contact for 
Federal training, exercises and equipment assistant. The 
Commission's third report included recommendations to address 
the lack of coordination, including proposals to consolidate 
Federal grants programs, information and application procedures 
and to include first-responder participation for Federal 
preparedness programs. These findings and recommendations have 
been echoed in other commission and GAO reports by the first-
responder community and by State and local governments.
    On May 8, 2001, the President asked FEMA Director Joe 
Allbaugh to create an Office of National Preparedness with 
FEMA. ONP's mission is to provide leadership in the 
coordination and facilitation of all Federal efforts to assist 
State and local first-responders and emergency management 
organizations with planning, equipment, training and exercises 
to build and sustain the capability to respond to any emergency 
or disaster, including a terrorist incident.
    The President's formation of the Office of Homeland 
Security further improves the coordination of Federal programs 
and activities aimed at combating terrorism. FEMA is working 
closely with Director Ridge, the OHS and other agencies to 
identify and develop the most effective ways to quickly build 
and enhance domestic preparedness for terrorist attacks.
    This past January, the President took another step to 
strengthen first-responder efforts to prepare for and respond 
to incidents to terrorism. The first-responder initiative in 
the President's 2003 budget calls for $3.5 billion, most of 
which would be distributed to State and local jurisdictions for 
planning efforts, critical equipment and to train and exercise 
personnel.
    FEMA's Office of National Preparedness will administer 
these grants. ONP will also work with our Federal and State 
partners to coordinate all terrorism-related first-responder 
programs. To begin addressing some of the lessons the first-
responder community learned on September 11th, ONP will develop 
national standards for interoperability and compatibility in a 
number of areas, including training, equipment, mutual aid and 
exercising. The first-responder grants, coupled with these 
standards, will balance the needs for both flexibility and 
accountability at the State and local level.
    With respect to California, we continue to work very 
closely with the Governor's Office of Emergency Services and 
other State offices. Our mechanism to providing support in the 
past has been the Nunn-Lugar 120 Cities Initiative. Recently, 
through our Terrorism Consequence Management Preparedness 
Assistance Grant Program, we have been able to fund terrorism 
and weapons of mass destruction preparedness activities at the 
local level. Our funds are provided through the Governor's 
Office of Emergency Services, and they in turn provide them to 
the California State Strategic Committee on Terrorism. The 
areas of focus to the committee include cyber terrorism, 
equipment, training, intelligence and early warning systems, 
medical and health resource allocations and others.
    FEMA has also participated in senior official workshops, 
chemical weapons tabletop exercises as well as biological 
weapons tabletop exercises in the city of Long Beach and other 
California cities. FEMA is well prepared and equipped to 
respond to terrorist disasters. We are strengthening our 
preparedness efforts now so that State, tribal and local 
governments and first-responders are well prepared for all 
disasters, including the incidence of terrorism. Continued 
coordination among all levels of government will ensure a safer 
America. Thank you for your time, and I will be happy to 
entertain any questions.
    [The prepared statement of Mr. Castleman follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Horn. Well, thank you. And I should have said that 
automatically your fine statement, which we have all read, is, 
at this point, in the record, and then if you can stay through 
this, we will get to some questions.
    So we have Kevin Yeskey, director, Bioterrorism Response 
Program, Centers for Disease Control and Prevention, from 
Atlanta, I assume. How is the weather there?
    Mr. Yeskey. It is about the same as it is here, sir. Good 
morning----
    Mr. Horn. OK. We are delighted to have you.
    Mr. Yeskey. Good morning, Mr. Chairman, members of the 
committee and panel. I am Kevin Yeskey. I am the director of 
the Bioterrorism Preparedness and Response Program in the 
National Center for Infectious Diseases at the Centers for 
Disease Control and Prevention. Speaking for all the men and 
women of my agency, let me thank you for sponsoring this field 
hearing, raising these important issues and for allowing us to 
take part.
    Like all other Americans, we at CDC were horrified and 
saddened by the events which took place in New York City and 
Washington, DC, last fall. But as the Nation's disease control 
and prevention agency, we were also immediately galvanized to 
action to provide assistance to our partners and the affected 
cities and States.
    In my oral comments, I will provide a brief overview of 
CDC's activities related to September 11th and the subsequent 
anthrax attacks and how we are working better to prepare our 
Nation's States and cities for the threat of public health 
emergencies, including terrorism. My written statement goes 
into more detail about the overall response planning.
    The terrorist events of September 11th and the later events 
related to anthrax have been defining moments for all of us, 
and they have greatly sharpened the Nation's focus on public 
health. These events created the greatest public health 
challenge in CDC's history, requiring an unprecedented level of 
response. CDC has deployed 588 employees since September 11th 
in response to the World Trade Center event and the anthrax 
investigation. Within minutes of the second plane crash in the 
World Trade Center, we initiated an emergency operation center 
that functioned 24 hours a day, 7 days a week.
    While all commercial aircraft were grounded after the 
attack, CDC was able to arrange transportation of its emergency 
response personnel to New York. For the first time ever, CDC 
deployed the National Pharmaceutical Stockpile, sending push 
packages of medical materials to New York City and Washington, 
DC. In response to the cases of anthrax exposure, this program 
was also used to deliver antibiotics for post-exposure 
prophylaxis to employees in affected buildings, postal workers, 
mail handlers and postal patrons.
    Within 4 hours after the attack on the World Trade Center, 
CDC's Health Alert Network was activated and began transmitting 
emergency messages to the top 250 public health officials 
throughout the Nation. Over the next 16 weeks, 67 health 
alerts, advisories and updates were transmitted, ultimately 
reaching an estimated 1 million frontline public and private 
physicians, nurses, laboratories and State and local health 
officials.
    The Epidemic Information Exchange, EPI-X, the public 
health's established, secure communications network, 
immediately developed a secure conference site for State 
epidemiologists and local onsite CDC investigative teams for 
posting information on surveillance and response activities, 
including HHS reports, CDC health advisory information and 
health alerts and other reports from State health departments. 
The Morbidity and Mortality Weekly Report, CDC's scientific 
publication, published reports on an urgent basis and delivered 
these reports electronically to over 500,000 healthcare 
providers.
    During the height of the Nation's anthrax crisis in 
October, CDC experienced larger than normal traffic on its Web 
site, conducted daily press telephone briefings and fielded 
thousands of press inquiries and featured in television 
interviews reaching millions of viewers. At the peak of the 
anthrax response, CDC had more than 200 personnel in the field 
assisting State and local partners and hundreds more personnel 
at headquarters assisting the effort. Overall, there were a 
total of 22 cases of anthrax, with 11 being the cutaneous form 
of the disease and 11 being the inhalation form. While we 
deeply regret each illness that occurred, we are very 
encouraged by the fact that none of the approximately 10,000 
persons who were given antibiotic prophylaxis developed 
anthrax, despite significant exposure to spores.
    Last fall's events revealed serious gaps in our Nation's 
public health defenses against biological and radiological 
threats. These gaps include inadequate epidemiologic and 
laboratory surge capacity and the insufficient knowledge base 
concerning sampling and remediation and lack of information 
concerning infectious dose and host susceptibility. In 
addition, the public health system needs to improve its ability 
to convey information and provide treatment and preventive 
measures to large numbers of persons and having a way of 
assuring compliance. This will require extensive preparedness 
planning, cooperation across agencies between Federal, State 
and local counterparts. It will also require that we work 
closely with partners in emergency response community, law 
enforcement, clinical medicine, academia and private industry. 
CDC will continue to support State and local government 
officials in preparing and responding to public health 
emergencies, including terrorist events, by providing 
assistance and technical guidance and conducting problem 
assessment, evacuation and relocation decisions, proper 
treatment of casualties, epidemiological surveillance, disease 
control measures and studies of exposed populations.
    At the request of the State, CDC will deploy trained rapid 
response teams who can assist in protecting the public's health 
in an event of a public health emergency. CDC response teams 
have expertise on medical management, disease prevention 
strategies, assessing needs, first-responder procedures, site 
safety, environmental sampling strategies, sampling equipment 
and disease and injury surveillance. All States and localities 
must be prepared to address these threats and mount an 
effective response.
    In late January, HHS announced that a total of $1.1 billion 
in funding would be provided to States to assist them in their 
bioterrorism preparedness efforts. On January 31, Secretary 
Thompson notified each Governor of the amount his or her State 
would receive to allow them to initiate and expand planning and 
building the necessary public health infrastructure. Here in 
California, the State received $60.8 million in funds, and Los 
Angeles County received $24.59 million in funds from CDC.
    In conclusion, CDC is committed to working with other 
Federal agencies and partners, State and local health 
departments and healthcare and first-responder communities to 
ensure the health and medical care of our citizens. Although we 
have made substantial progress in enhancing the Nation's 
capability to prepare for and respond to a terrorism episode, 
the events of last fall demonstrate that we must accelerate the 
pace of our efforts to assure an adequate response capacity. A 
strong and flexible public health system is the best defense 
against any disease outbreak or public health emergency.
    Once again, let me thank you for the opportunity to be here 
today. We look forward to working with you to address the 
health and security threats of the 21st century. I will be 
happy to answer questions.
    [The prepared statement of Mr. Yeskey follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Horn. Thank you very much. Our next presenter is Ronald 
Iden, the assistant director in charge of the Los Angeles 
Division, U.S. Federal Bureau of Investigation. Mr. Iden.
    Mr. Iden. Thank you, Chairman Horn. Good morning. Good 
morning, Congresswoman Watson, Congresswoman Waters, Councilman 
Weiss. Thank you for inviting us to join you here today to 
discuss the FBI's efforts within the southern California region 
to work with our local law enforcement and first-responder 
partners in addressing the threat of weapons of mass 
destruction.
    As you know, the FBI's overall counter terrorism mission is 
to detect, deter, prevent and respond to terrorist actions that 
threaten U.S. national interests, at home or abroad, from 
either domestic or international sources. At the Federal level, 
the FBI's lead crisis management and investigative 
responsibilities exist in a partnership alongside FEMA's 
consequence management role for response to a WMD attack and 
the U.S. Secret Service's role of security planning and 
management. This partnership has demonstrated itself 
successfully at events such as this year's Winter Olympics and 
the 2000 Republican and Democratic National Conventions.
    The FBI recognizes that terrorism is a global problem with 
a local impact, as was evidenced with devastating clarity on 
the morning of September 11th. We understand, therefore, the 
importance of partnering with regional law enforcement, 
emergency services and health services agencies in executing 
our counter terrorism mission.
    The Los Angeles FBI office is responsible for a 40,000-
square mile, 7-county area and a population that exceeds 17 
million people. We interact with 155 chiefs of police and 
sheriffs, including the Los Angeles County Sheriff's Department 
and the Los Angeles Police Department. The Los Angeles FBI has 
collaborated closely with our city, county and State partners 
in addressing the threat of terrorism for nearly 18 years. In 
1984, we formed the Los Angeles Task Force on Terrorism as an 
outgrowth of our planning and preparation for the 1984 Summer 
Olympics, which were held in Los Angeles.
    This task force, formed jointly with the Los Angeles Police 
Department and the Los Angeles County Sheriff's Department, has 
expanded to incorporate the full-time participation of 14 
Federal, State and local law enforcement agencies. We have 
established additional joint terrorism task forces within our 
territory, including the Inland Empire, covering Riverside and 
San Bernadino Counties and an Orange County JTTF, which 
includes city and county agencies from Orange County, which was 
recently formed in response to the September 11th attacks.
    As you may know, in response to the events of September 
11th, the State of California has established regional 
terrorism task forces throughout the State composed of agents 
from the California Department of Justice, officers from the 
California Highway Patrol and local police agencies. The FBI, 
the Governor, the California attorney general and their 
executives have worked together closely to ensure close 
collaboration between those regional State task force units and 
the FBI's JJTFs throughout the State. In fact, most of those 
units are co-located with the FBI's task forces.
    In addition to establishing strong collaborative 
relationships with law enforcement counterparts, the Los 
Angeles FBI has developed similar relationships with emergency 
first-responders and public health service agencies in order to 
prepare to respond to an act of terrorism. These non-
traditional efforts began 6 years ago with the formation of the 
Los Angeles County Terrorism Early Warning Group. The formation 
of this group was a direct result of strong working 
relationships developed over the years between the Los Angeles 
County Sheriffs and City Police Departments, the Los Angeles 
County and City Fire Departments, the Los Angeles County Health 
Department and FBI personnel assigned to emergency operations 
in counter terrorism.
    The mission of the Terrorism Early Warning Group is to 
provide a common venue for information sharing, training and 
the establishment of common response protocols for law 
enforcement, fire, health and emergency management agencies to 
WMD incidents. Today, more than 50 agencies participate in the 
Los Angeles Early Warning Group.
    In addition, the Los Angeles FBI participates in extensive 
weapons of mass destruction training with local first-
responders. Our 25-member HAZMAT team and 4 bomb technicians 
have participated in 5 Nunn-Lugar sponsored WMD consequence 
management exercises in the Los Angeles area. The Los Angeles 
exercise, referred to as Westwind 99, simulated a chemical 
attack resulting in 2,000 deaths. Participants included local, 
county and State law enforcement, regional fire and HAZMAT 
agencies, health and emergency management agencies, the 
Department of Defense and various Federal agencies from the 
Domestic Emergency Support Team.
    We have conducted hazardous materials training with many 
agencies, in addition to those I mentioned above, including the 
FAA, the Los Angeles Airport Police, representatives from UCLA 
and county hospitals. Our bomb technicians conduct basic 1-week 
post-blast schools for regional law enforcement agencies--eight 
annually. And they conduct one advanced post-blast school 
annually, which attracts students from law enforcement agencies 
around the country. Other Federal partners responsible for WMB 
incidents, including FEMA and the Centers for Disease Control, 
participated in field training exercises, as well as national 
security special events, such as the 2000 Democratic National 
Convention.
    Recognizing the strong need for interagency communication, 
the FBI has not only obtained top secret clearances for key law 
enforcement personnel but also for fire, HAZMAT and health 
personnel. This was necessary to ensure that critical threat 
information could be passed to local and State officials so 
that they could make appropriate health and safety decisions 
during the course of a WMD terrorist incident.
    Subsequent to the events of September 11th, we have also 
established direct e-mail dissemination of threat information 
to all of the 155 chiefs of police and sheriffs within our 
territory. We also use the law enforcement online network, the 
terrorist threat warning system and national law enforcement 
telecommunications system to disseminate threat information. We 
participate in the State of California's Standing Committee on 
Terrorism and through that committee have assisted in the 
development of policies, including recent anthrax response 
protocols.
    Our outreach and training efforts have also been expanded 
to the private sector, in addition to State and local 
government, through our National Infrastructure and Protection 
and Computer Intrusion Program. NIPCI's Infraguard outreach 
component shares threat information with representatives of 
eight critical infrastructure sectors: banking, transportation, 
telecommunications, oil and gas, water, power, government 
services and emergency services. Among those partners is the 
Pacific Gas and Electric's Diablo Canyon Nuclear Power 
Facility.
    In closing, Mr. Chairman, the Los Angeles division of the 
FBI is quite proud of our long-standing commitment to working 
as a partner with State and local government in preparing to 
meet the challenge of a WMD terrorist incident. Chairman Horn, 
this concludes my prepared remarks. I would like to express 
again my appreciation for your interest and examining of these 
issues that are so vital to all of us in southern California, 
and I look forward to any questions. Thank you.
    [The prepared statement of Mr. Iden follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Well, thank you for that very thorough 
examination of what is going on in California. I might add to 
this that we had wanted in the House of Representatives to have 
the FBI work with the law enforcement situation in the United 
States. And I did put a bill in, and Mr. Sensenbrenner will 
move it through the judiciary when we get back, and that will 
back up the FBI so you can check on the people to make sure 
they are not involved with drugs or anything else and that you 
can pass on the intelligence. And I know you are already 
working in California, but the rest of the country hasn't done 
too much in terms of the local law enforcement.
    So we now move to Patricia Dalton. She is Director of 
Strategic Issues, the U.S. General Accounting Office. The 
General Accounting Office is the right arm of the Congress in 
terms of research on financial matters and programmatic 
matters. And we are delighted to have you here. And one of the 
roles of the GAO person on these panels is that you take good 
notes and you find at the end what have we missed, which is 
what we are really interested in. So, Ms. Dalton, glad to have 
you here.
    Ms. Dalton. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to be here in southern 
California to discuss issues critical to national preparedness. 
As you are aware, GAO has called for the development of a 
national strategy that will improve our overall Nation's 
preparedness, and I will address my remarks to that strategy 
today.
    The creation of the Office of Homeland Security, under the 
leadership of Tom Ridge--as you know, Mr. Chairman, GAO has 
called for the development of a national strategy that will 
improve our Nation's preparedness, and I will address my 
remarks today to that strategy. The creation of the Office of 
Homeland Security, under the leadership of Tom Ridge, is an 
important and potentially significant first step. As it comes 
together, we believe that the key aspects of the strategy 
should include, first, a definition and clarification of the 
appropriate roles and responsibilities of Federal, State and 
local entities in the private sector; second, the establishment 
of goals and performance measures to guide our Nation's 
preparedness efforts; and finally, a careful choice of the most 
appropriate tools of government to best implement the Nation's 
strategy and achieve our national goals. I would like to 
briefly discuss each of these three points.
    First, the roles and missions of Federal, State and local 
entities need to be clarified. Although the Federal Government 
appears to be a monolith to many, in the area of terrorism 
prevention and response it is anything but. In fact, there are 
more than 40 Federal entities that have a role in combating and 
responding to terrorism and 20 entities alone in the 
bioterrorism area.
    Concerns about coordination and fragmentation in Federal 
preparedness efforts are well-founded. There has been no single 
leader in charge of many terrorism-related functions. The lack 
of leadership has resulted in the development of programs to 
assist State and local governments that were often similar and 
potentially duplicative. This creates confusion at the State 
and local level, and they certainly have called for more 
coordination and to have one place to go to in the Federal 
Government for such coordination.
    Second, performance and accountability measures need to be 
included in our Nation's strategy. Numerous discussions have 
been held about the need to enhance the Nation's preparedness, 
but national preparedness goals and measures, measurable 
performance indicators have not yet been developed. Clear 
objectives and measures are critical to a sustainable strategy 
and for providing a framework for our roles and 
responsibilities at all levels of government and in the private 
sector.
    Finally, from a national perspective, appropriate tools 
need to be selected for designing any Federal assistance. The 
General Accounting Office's previous work in Federal programs 
suggest that the choice and design of policy tools have 
important consequences for performance and accountability. 
Governments have at their disposal a variety of policy 
instruments, such as grants, regulations, tax incentives and 
regional coordination and partnerships, that they can use to 
motivate and mandate other levels of government and the private 
sector entities to take actions to address security concerns 
and goals.
    For example, the Federal Government often uses grants as a 
means of delivering Federal programs. Grants can be designed to 
target the funds to State and localities with the greatest 
needs, discourage the replacement of State and local funds with 
Federal funds through maintenance and effort requirements, and, 
finally, and most importantly, to strike a balance between 
accountability and flexibility at the State and local level.
    Intergovernmental partnerships and regional coordinations 
will be a very important tool, particularly with respect to 
information sharing and mutual aid agreements. National 
preparedness is a complex mission that requires unusual 
interagency, interjurisdictional and interorganizational 
cooperation. An illustration of this complexity can be seen in 
the ports which is certainly an issue in southern California 
with the largest port in the Nation. There are in fact at least 
15 Federal agencies that have jurisdiction over our seaports 
and the various functions to make them operate. The primary 
ones are the Coast Guard, Customs Service and the Immigration 
and Naturalization Service.
    Mr. Chairman, in conclusion, as increasing demands are 
placed on budgets at all levels of government, it will be 
necessary to make sound choices to maintain physical stability. 
All levels of government in the private sector will have to 
communicate and cooperate effectively with each other on a 
broad range of issues to develop a national strategy to better 
target our available resources to address the urgent national 
preparedness needs.
    This completes my prepared statement. I will be pleased to 
respond to any questions. Thank you.
    [The prepared statement of Ms. Dalton follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Thank you. That is very helpful as the General 
Accounting Office always is. It is headed by the Comptroller 
General of the United States. He has a term of 15 years, and he 
doesn't have to take a lot of nonsense from anybody, the 
President, Congress or anybody else. And in Dr. Walker we have 
had a first-class person in that, he has a first-class staff.
    We now move to Dallas Jones, the director of the Governor's 
Office of Emergency Services for the State of California. Mr. 
Jones.
    Mr. Jones. Chairman Horn and members of the subcommittee, 
thank you very much for being allowed to testify before you 
today. First, I would like to talk a little bit about OES' role 
in disaster management and then a little bit about our anti-
terrorist initiatives.
    We coordinate the statewide response to all disasters and 
emergencies in the State. Now, to manage disasters or the 
emergencies, California has a unified, coordinated response 
involving all levels of government. This is based on the 
incident and command system and the unified command, which we 
saw very effectively utilized recently at the Winter Olympics 
in Utah. And just prior to then, at the DNC here in Los 
Angeles, where all the agencies with various jurisdictional 
interests and various areas of expertise all came together and 
worked in a unified command for a common goal.
    This didn't come about by accident. It was developed here 
in California following the major fires and activities of the 
early 1960's and 1970's. A concerted effort was made by 
Federal, State and local agencies to develop a better 
coordination of multi-jurisdictional and multi-authority 
commands. It has been finely honed over the years because here 
in California we don't practice disasters, we have them very 
routinely. All levels of government need to be involved and 
have to be involved for it to be successful.
    Another response tool is the coordinated mutual aid system 
that we have here in the State. The system incorporates the 
neighbor helping neighbor principle and allows law enforcement, 
fire and rescue, emergency management to go into neighboring 
jurisdictions to help. And vice versa, if you have need, then 
they will bring them into your agency. For the past several 
years, terrorism has topped OES' priority list of hazards to be 
planning. We have, for many years, provided guidance on 
terrorism planning to local governments, and indeed we have 
published a guide and put out to all local governments in 1998 
a terrorism planning guide. In 1999, Governor Davis approved a 
California terrorism response plan to guide and direct the 
management of emergency and disaster operations related to 
terrorism incidents. Our office chairs the State Strategic 
Committee on Terrorism, which is comprised of representatives 
of Federal, State and local government agencies. They develop 
anti-terrorism plans, training and grant proposals.
    We also provide expertise and support for State and local 
private agencies in the development or the maintenance of 
preparedness response or recovery plans for biological toxic 
substances and radiological emergencies. This includes very 
close coordination with the Department of Health Services and 
the Emergency Medical Services Authority, which oversees the 
State's health and medical disaster planning.
    Although there are other potential biological terrorist 
agents, anthrax became a primary concern in mail and shipping 
safety following the terrorist attacks that resulted in anthrax 
cases and deaths in several eastern States. Since then 
thousands of threats have been investigated in California and 
other States. As a result, our office distributed guidelines 
for handling suspicious packages that might contain chemical or 
biological contaminants.
    Resources in that effort included a toll-free safety 
information and referral line where callers can receive 
important non-emergency information about anthrax, personal and 
family preparedness as well as request copies of the California 
Highway Patrol's video for mail handling suspicious envelopes 
and packages.
    Because the potential for chemical emergencies has been a 
significant issue for some time, California had a sophisticated 
response system in place even prior to September 11th. For many 
years we have led a coordinated effort to work on hazardous 
materials and response planning. We also maintain a 24-hour 
hazardous materials network reporting and notification system, 
which also provides technical assistance in the development of 
training and risk management programs. It is this system that 
we will continue to build and prepare for potential terrorism 
events, be they chemical, biological or nuclear.
    Several other efforts are underway that we believe will 
enhance the State's coordination with the Federal Government in 
the event of a terrorism event or any other type of emergency. 
These include an update of the California annex to the Federal 
Response Plan, which is currently underway. The State has also 
embarked on a major catastrophic disaster planning effort 
overseen by the Federal Catastrophic Disaster Response Group. 
This involves State, local and Federal emergency response 
agencies.
    Even with all of the recent events in our Nation, we feel 
that California is very well poised to effectively coordinate 
with local, State and Federal agencies to manage the disasters 
or emergencies of any type. This doesn't mean that we are fully 
prepared for anything that may come our way. We have to 
continue to work very closely with our Federal, State and local 
partners in the planning efforts to identify both terrorism 
threats, vulnerabilities and assess our needs for priorities.
    We are very encouraged by the announcement of substantial 
funding in the President's budget, and we strongly advocate the 
funds be coordinated through the State using our existing 
expertise and mechanisms for fund prioritization and 
distribution. These systems have proven very effective time and 
again in the administration of prior Federal grants. A 
cooperative, coordinated effort involving all levels of 
government must occur to ensure California is fully able to 
address the terrorist threat. Each of the involved specialties 
must be included in that planning--law, fire, health and 
emergency management.
    Again, I would like to thank you for the opportunity to 
come before you. I would be more than happy to answer any 
questions.
    [The prepared statement of Mr. Jones follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Well, thank you. That is very interesting 
testimony. We now have one that is well-known to many in 
southern California and now at the State level, Dr. Diana 
Bonta, the director of the California Department of Health 
Services, State of California. And for many years, she was the 
director of Health in the city of Long Beach, and it is very 
rare for any city to have its own health organization. The 
Governor picked the right person when he picked her. So thank 
you.
    Ms. Bonta. Thank you, Mr. Chairman. It is good to have you 
here in Los Angeles and to see you all here this morning as 
well.
    As the director of the California Department of Health 
Services, this is the agency responsible for coordinating 
statewide disaster public health assistance in support of local 
operations. And the department has primary responsibility for 
public and environmental health operations and has major 
supporting responsibility to the Emergency Medical Services 
Authority for disasters involving mass casualties.
    Through its disease control surveillance, laboratory, 
environmental monitoring programs, the department plays a 
central and critical role in rapidly detecting and 
appropriately responding to chemical, radiological and 
biological threats to terrorism. We have had an existing 
cooperative agreement for bioterrorism response planning from 
the U.S. Centers for Disease Control and Prevention, and I sit 
on their Advisory Committee. This has been very instrumental in 
assisting us to buildupon the State's emergency and disaster 
response systems. We are now in our third year, and we do have 
supplemental funding.
    We just heard testimony from Mr. Yeskey in terms of the 
fact that we are receiving additional moneys. The $60 million 
from CDC is for the cooperative agreement to the State and to 
Los Angeles County, $24 million. I would like to also mention 
the cooperative agreements for hospital planning and 
preparation also includes to the California Department of 
Health Services $9.9 million and to Los Angeles County $3.6 
million.
    In addition to that, the funding also included funds for 
seven cities for a total of $2.2 million, and these cities will 
develop metropolitan emergency bioterrorism preparedness for 
regional preparedness planning as a part of the metropolitan 
medical response systems initiative. Now, the hospital funds 
are fairly new; they are going to be implemented in two phases. 
The first is working together with EMSA, the Emergency Medical 
Services Authority, here in California to develop a State plan 
for the use of this hospital funding here in California. And 
the purpose of this phase one planning process is an effort to 
foster the preparedness in the State's hospital and healthcare 
systems to respond to bioterrorist events through a statewide 
assessment of unmet hospital needs.
    We will, in addition, phase two, certainly we will be 
working very, very closely with the hospitals so that they are 
looking at their specific needs and their specific communities. 
Not all communities look the same, not all communities have the 
same needs. So we want to be able to tailor this with input 
from those individual communities as well.
    We have certainly worked with a CDC cooperative agreements 
as well, and this calls for partnerships, and the partnerships 
here in California include the California Conference of Local 
Health Officers, the County Health Executives Association of 
California, as well as many other public and private sector 
partners. And we feel that it is crucial for all those entities 
to come together. We would have numerous meetings in which we 
invite all these players to the same table to discuss their 
respective needs and to incorporate them in our planning 
process.
    We have taken an additional step, kind of an unusual one, 
to ensure local and State collaboration. I have entered into an 
intergovernmental agreement with Placer County in northern 
California for the services of its health officer. In February 
of this year, Dr. Richard Burton, a commander in the Naval 
Reserves, a past Marine, a Corps flight surgeon and a physician 
with several years of local public health experience, he joined 
the California Department of Health Services as a senior member 
of our bioterrorism preparedness planning team. And then we 
also lent two of the Feds to the U.S. Department of Health and 
Human Services, someone who is very talented from California, 
Dr. Michael Asher, who has been chief of our bio lab here in 
California. We lent him to be used, and so he is now 
functioning in Washington, DC.
    I think this is very important, because sometimes we don't 
understand our different bureaucracies, and the more we can mix 
it up, have people from the Feds join us here, we have various 
CDC physicians, epidemiologists, scientists who are assigned 
here in California, and Dr. Gil Chavez, for instance, is our 
chief of Internal Health. He comes from the Centers for Disease 
Control, and we lent staff to Washington, and we use certain 
resources from our local county health departments and our city 
health departments to be able to understand each other and 
understand our respective worlds.
    I know that the committee is interested in the department's 
anti-terrorism activities as they relate to California's public 
water systems, and the department is responsible for the 
oversight and regulation of California's 8,500 public water 
systems and local health jurisdictions participate in the 
oversight and regulatory process. And shortly after September 
11th, the department's Division of Drinking Water and 
Environmental Management staff met with representatives of 
public water systems throughout the State.
    They have been able to discuss the State's water systems, 
participating in approximately--numerous numbers of meetings, 
and they are looking to protect the California public. And we 
will continue to dialog here with the Department of Water 
Resources, the Metropolitan Water District of Southern 
California to develop a response strategy in the event of a 
bioterrorist action against the State water project of the 
Metropolitan Water Resources, the treatment facilities and the 
distribution systems. We will be certainly continuing this 
dialog and working with all of these experts in this field as 
well.
    I echo some of the testimony in terms of we have so many 
agencies involved at the Federal level, State level, local 
level that we need to have coordination, coordination, 
coordination. And I would like to close by saying that in my 
capacity from 1988 through 1999 as director of the Long Beach 
Department of Health and Human Services, I saw firsthand that 
you need to have a relationship, not only with your public 
health colleagues, but with the fire department--they are 
represented here today in the second panel--with law 
enforcement, with constituents in the community, but most 
importantly, with community members. If we don't have a dialog 
with the community, and certainly Long Beach where we know that 
the population, 51 percent and growing, who are members of 
communities of color, that needed to address their specific 
needs, certainly language barriers sometimes presents us with 
challenges, and we need to go above and beyond to outreach the 
communities and work closely with them.
    I look forward to working with you as members of this 
committee, today and in the future, providing you assistance as 
much as possible. Thank you.
    [The prepared statement of Ms. Bonta follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Well, as I would expect, you are very eloquent on 
this subject, and you make some real good points. We are now 
going to go to questioning of this particular panel, and I am 
going to yield 5 minutes to start with the ranking member, 
which is Ms. Watson from Government Reform. And we are glad to 
have you today.
    Ms. Watson. Thank you so much, Mr. Chairman, and I want to 
thank the presenters. I am very impressed with the report you 
are giving us. I am going to throw some questions out, and all 
of you can respond if you choose.
    The first is in your respective agencies' departments and 
programs, what are the resources, other than money, that you 
need? You can go up and down the table if you wish. The other 
question is that Governor Ridge has come up with the signal 
light--the green, the red, the yellow and so on. Maybe FEMA 
could probably respond to this best. What does that mean? When 
we start at the lowest level and move on up to the most at-risk 
level, what does that put into operation, what does it start? 
What would you be doing? And FEMA, again, you project you do, I 
know, preparedness kinds of activities. When you see those 
different signals, what action is taken, and maybe all of you 
can respond with your own agencies, when you get those colored 
signals? And believe me, we know nothing; we just know the 
colors. So take us from the elementary level on up.
    Mr. Castleman. Well, I am not an expert on all of that yet. 
I can tell you what is apparently going on. Certainly, it is 
not--this is not final yet. It is still in the public response 
mode. We are looking to our Federal partners and the first-
responder community and anyone else who has suggestions or 
ideas on this program that Governor Ridge has put forward. We 
think it is a step in the right direction. Whether it will be 
the final form or not we are not sure.
    But, certainly, as the degrees start--and being colorblind, 
I can get a little mixed up in my colors, but I do know that 
red is at the top, and I think it is orange that is next and so 
forth and so on. What we have been doing to evaluate this, from 
a FEMA standpoint, is doing a crosswalk, if you will, or 
bridging into the various phases of an emergency situation that 
we will need to trigger, such as heightened security at one 
level above another.
    So I think rather than going into it in too much detail, I 
want to, again, emphasize that it is still a preliminary 
program and not finalized yet. But I believe that some form of 
this, if not this program itself, will be a good structure that 
not only will those of us that are in emergency management and 
all of our partners here and first-responders will become very 
familiar with, but in the programs that we are working on with 
citizens for, that all of those folks will understand it, and 
it will become second nature to us all, just as the traffic 
lights in our streets. We will all understand perfectly well 
exactly where we are when this program is final.
    Ms. Watson. Let me ask the rest of you, do those signals, 
those lights have meaning to you now, in terms of the planning 
you are doing, the preparedness planning you are doing? We 
still don't understand what happens as a result of the colors 
being flashed out there? I mean where does it happen? Does it 
come through the press? Is it on television, radio? What are 
you to do? Does anyone know?
    Mr. Jones. Congresswoman Watson, I might take a stab at it.
    Ms. Watson. And it is good to see you, Dallas, again.
    Mr. Jones. Good to see you too. I almost called you 
Senator, I am sorry.
    Ms. Watson. It is all right.
    Mr. Jones. The system basically is designed to coordinate 
activities nationally for a variety of reasons, both law 
enforcement, so that we will have the ability to ramp up 
departments or not, depending on the depth of the threat, 
regionally or locally. And so the biggest component of that 
system is yet to be developed, and it really has to be 
developed on a local level. We are working with all of the 
State agencies to try to determine, because one size doesn't 
fit all. In the Office of Emergency Services, for example, we 
have emergency operation centers that we will up to full 
staffing at orange or red that during normal times we have at a 
maintenance level. Maybe another department, like----
    Ms. Watson. You are getting the yellow right now.
    Mr. Jones. Oh, OK. Yes. I am in danger. [Laughter.]
    When it gets red, we duck under the table. So it is really 
to be determined, and that is what--the 45-day comment period 
is for that so that we can work with all the other agencies and 
try to get a standardized response. The biggest problem that I 
see in the whole response alert network is what are the private 
citizens going to do. And that we need to get out. We are 
working on a public information campaign to say, ``Look, you 
know, this isn't about ducking under the desk when it goes red; 
it is about common sense kinds of things that you can do for 
preparedness.'' And so that is going to be, I think, one of the 
most difficult things in the process to be developed.
    Ms. Watson. Let me just throw this out, in our school 
system, we have these alarms, and we do these exercises and so 
on. I think we need, as we look at it, Mr. Chair, to have a 
program for schools, their own entity, and have a program, and 
then for citizens. I would suggest at the end of the hearing 
that one of the things we could do as a subcommittee is use 
California as a model since we are the largest State, since you 
all have been involved in preparedness and since we know every 
disaster that ever can happen, and it happens here first, that 
we might be able to suggest what coordination on the Federal 
level would mean. Because I too have no idea what we do when we 
see--I think we run underneath the table when we see red. We 
used to tell our kids, ``Roll over and get underneath the 
table.'' We need to have in your response period some very 
strong recommendations, and I think it would mean a lot to 
Congress, it would mean a lot to the Federal Government, 
because we all have been involved in these emergencies, and I 
think we could tell the rest of the country how to respond. But 
if anyone else wants to comment. Coordination, I see, is the 
key, coordinated efforts.
    Mr. Horn. Mr. Iden.
    Mr. Iden. Perhaps I can offer a brief--Mr. Chairman, 
Congresswoman Watson.
    Mr. Horn. Please.
    Mr. Iden. The threat warning protocol grew from the need to 
convey to law enforcement and the public the degree to which 
certain threat information should be considered significant. 
And what we are faced with in this environment is intelligence 
reporting on occasion from a source who is not corroborated. 
What response is appropriate to that sort of a report? You may 
have an occasion where you are receiving a confluence of 
reports with regard to threats to a particular sector, the 
nuclear power facilities or a country, U.S. assets in Turkey.
    So what is envisioned here is there might be a threat 
protocol warning issued to a particular sector, issued to a 
particular country, perhaps a geographic region of the United 
States if sufficient information comes to our attention 
suggesting a threat to a particular region. But more often than 
not, the reporting that is received is very vague, it is 
uncorroborated, it is unsubstantiated, it comes from a source, 
and there is certainly a need to attach some level of 
significance to that information.
    One piece of information of that nature might receive a 
very low threat warning, because it is not corroborated. If you 
receive a couple of pieces of information that suggest the same 
sector is being threatened or a timeframe or a particular 
target, then that threat warning would elevate perhaps to an 
orange or a red. But, again, as has been mentioned here 
earlier, this is a work in progress. It is very difficult to 
handle and get your hands around, but it is important that we 
find some way to convey, and when to convey a threat warning, 
with a level of significance to attribute to that warning.
    Ms. Watson. Just another comment, Mr. Chair.
    Mr. Horn. I am going to have to move to the next. We will 
have some followup on that.
    Ms. Watson. Yes, that is fine.
    Mr. Horn. Ms. Millender-McDonald.
    Ms. Millender-McDonald. Thank you, Mr. Chairman, and thank 
you so much for convening this important hearing. We applaud 
you on the work that you have done, Mr. Chairman, throughout 
the information in providing these types of hearings for us to 
get a grasp as to what is going on with reference to the 
interagencies' coordination.
    I might say that when I have convened--I serve on the House 
Homeland Security Task Force, looking at transportation, as I 
am a member of the Transportation Committee. And I have, in 
convening some of my hearings, especially down in the ports, I 
find that our seniors, getting back to Mr. Jones' statement, 
and the public, just our private citizens, are really quite 
concerned as to what do they do in the event of a terrorist 
attack and a biochemical type of attack.
    So perhaps you might want to suggest, if you have not 
looked at this, and I suggest you do look at this because our 
seniors in homes, our schools, when we have met with the 
superintendents of schools, universities, they too are 
concerned about how do they dispatch students in various 
different buildings if there is an attack. So that is something 
that we really should look at, not just agencies, not just--of 
course, ports are extremely important and agencies, but we 
should look at just our constituents and seniors.
    There is a question that I have for Mr. Castleman. You said 
that FEMA's Office of National Preparedness has been directed 
to closely work with States and local agencies, governments, to 
ensure that their planning, training and equipment needs are 
met. Coming from the local government, what is the office doing 
to implement this directive?
    Mr. Castleman. Well, one of the things that we have already 
begun to do--of course, the office is very new. It was begun 
before September 11th and really we have expanded greatly since 
September 11th. We have begun to add more personnel in our 
regions, more personnel in our headquarters office in 
Washington, we have now appointed a new director of the Office 
of National Preparedness. So we are gearing-up.
    But in the meantime, we are already working with our State 
and local governments in terms of terrorism exercises. We have 
been doing that prior to September 11th, but we are doing even 
more of that. We are working with government entities on their 
continuation of operation plans. The other thing we are doing 
is preparing for the hope that the $3.5 million first-responder 
program will be approved by Congress, and the Office of 
National Preparedness will be the division of FEMA that will 
deliver those grants to our States, which will be a large task, 
but we are preparing to do that.
    Generally speaking, though, we are doing a lot of outreach 
to try to make sure that we--and I might cite something that 
came up that I think that we are trying to follow this. When I 
was in Washington a couple of weeks ago and heard Governor 
Ridge speak and Attorney General Ashcroft speak and Director 
Allbaugh speak at the same meeting, Governor Ridge said, ``It 
is not just about resources. We have got to remember that we 
have got to improve methods and relationships.'' I like the 
tone that he set for that, and I also like the fact that he 
mentioned that this is a national issue, not a Federal issue.
    Attorney General Ashcroft said that necessity is the mother 
of invention, but it is also the mother of cooperation. And 
Director Allbaugh mentioned that cooperation and improving 
relationships is not something that can be dictated by him or 
anyone else; it is a mindset that we all have to embrace. And I 
believe the window of time to do that is now. So the Office of 
National Preparedness, particularly at the regional level, as 
well as headquarters level, is reaching out to try to make sure 
that we facilitate those relationships.
    Ms. Millender-McDonald. Well, I certainly appreciate that, 
and we want to make sure that it is not just endemic to the 
larger cities, that your smaller cities under 90,000 should 
also be engaged in this, because a lot of my cities are fewer 
than 100,000 folks. Certainly, they want to dip in and be part 
of the Federal Government in these efforts.
    Let us see, I had one for Mr. Yeskey, but we are going to 
get--in your testimony, you discussed CDC's quick response in 
deploying the National Pharmaceutical Stockpile in New York and 
Washington, DC. Should a biological or chemical attack occur, 
how would those medications be distributed to a larger area 
that could encompass perhaps hundreds of miles? And that is 
something that everyone was thinking about during the anthrax 
in Washington.
    Mr. Yeskey. Yes. The National Pharmaceutical Stockpile 
consists of two main elements. One is the 12-hour push 
packages, which get initial antibiotics, medical materiel and 
equipment onsite of the affected area within 12 hours of our 
notification. There is a second amount of material called 
vendor managed inventory that is more tailored to the specific 
event. For instance, in the anthrax event, that would be 
specific antibiotics that would be used. The National 
Pharmaceutical Stockpile has currently 12-hour push packages 
located strategically around the country. So what would happen 
is if we had a large regional event, we would deploy the push 
packages to various areas for distribution by the State health 
departments and local health departments over that wide area.
    What we have also realized early on in the anthrax event is 
distribution of the antibiotics is probably the crucial factor 
with regards to time, to getting it to people, and as part of 
our cooperative agreement under our focus area of preparedness 
planning the Pharmaceutical Stockpile is going to be working 
with State health departments and local health departments in 
the distribution plans of those materials. So we would look at 
a cross-jurisdictional way of dispensing these antibiotics from 
the initial push packages that went to the States.
    Ms. Millender-McDonald. And urban areas strictly would have 
the response of--in other words, you, in your whole pattern 
that you have, in terms of the deployment, urban areas would 
not be missed in any way by this deployment.
    Mr. Yeskey. No, they wouldn't.
    Ms. Millender-McDonald. OK. Fine. Thank you, Mr. Chairman.
    Mr. Horn. Thank you. And we now have Representatives 
Waters. We are delighted you could make it this morning.
    Ms. Waters. Thank you. Thank you very much, Mr. Chairman.
    Mr. Horn. You are welcome. Let me continue a little bit of 
the question that was started by Congresswoman Millender-
McDonald.
    Recently, it was discovered that some pharmaceutical 
company had millions of dosages to respond to smallpox if in 
fact we had smallpox contamination. Why didn't we know where 
that was? We were told there was a shortage, and that was very 
scary. What kind of assessment do we do to identify medicines 
and medications that may be available in the United States or 
in the world, for that matter, and what do we do, not only to 
do that assessment, but to determine what we need to produce or 
manufacture? And have we calculated the shelf-life of 
medications that we know we would need in response to certain 
kinds of attacks? I mean I felt a little bit annoyed by the 
fact that we didn't know that we had millions of dosages of 
medications to respond to the smallpox possibility. What can 
you tell me about that?
    Mr. Yeskey. I will answer your last question first about 
the shelf-life and defer the smallpox vaccine question and 
provide information for that later, at a later time. The shelf-
life for antibiotics in our National Pharmaceutical Stockpile, 
we have an inventory management program that when antibiotics 
in our stockpile reach 1 year of their expiration date they get 
essentially put back into the manufacturer's normal stockpile 
and redistributed under normal distribution mechanisms. So, 
essentially, it is not recycling of the antibiotics, it is just 
putting them back into the normal manufacturer's distribution 
chain so they can be used before they expire.
    Additionally, we have entered in a Shelf-Life Extension 
Program that the Department of Defense uses that gives us 
another 2 years of certain antibiotics. So as they approach 
their shelf life expiration date, we can extend that for 2 more 
years. Now because of the size of the pharmaceutical stockpile, 
some of the antibiotics we have in there we just have so many 
that they can't be recycled back into the general distribution; 
they will expire. And that Shelf-Life Extension Program gives 
us another 2 years of utilization for those antibiotics. At 
that point, they cannot be put back into normal distribution 
and have to be discarded. Now that is several years down the 
road, so we don't have to worry about that in the stockpile 
yet, but that is a future consideration that we have to look at 
with the antibiotics in the stockpile.
    With regards to the smallpox vaccine, again, I will provide 
information at a later time on what mechanisms there are to 
determine what vaccine stores there are, but the CDC takes its 
vaccination policy for various vaccines. There are a number of 
groups, there are experts panels, there is the Advisory 
Committee on Immunization Practice that consults with the CDC 
and advises the CDC on how to use antibiotics--excuse me, who 
should receive the vaccines, how they should be managed, 
contraindications and policies like that they advise the CDC on 
the vaccine usage.
    Ms. Waters. Let me ask, recently we discovered that there 
was a plot by someone associated with al Qaeda to blow up a 
nuclear power plant, and I keep hearing discussions about the 
fact that there is really no way to secure our nuclear power 
plants, that they are just sitting there exposed. Can you tell 
us something that we don't know about the ability to secure 
them without getting into, I guess, classified information, but 
can we secure our nuclear power plants?
    Mr. Iden. With regard to your first question, I am not 
familiar with the plot that you referred to. I know that we 
recognize that there is the potential threat to nuclear power 
facilities. Specifically, I don't have that information. That 
question would probably best be--your second question would 
probably best be addressed by security folks, in our case, at 
Diablo Canyon, but I can share with you that I have been to 
that facility, I have spent time with them, discussed with them 
the security that they have in place, and it is my belief that 
with regard at least to the facility that I am aware of here in 
our territory, Diablo Canyon, they have got very strong 
security on the ground. They would be as vulnerable from the 
air as any other target might be, as you can imagine.
    There is some question and speculation as to the degree of 
damage that would be caused by an aircraft crashing into a 
facility. Those are questions that are beyond my expertise, but 
I can share with you that with regard at least to the facility 
within our territory the briefing that I received and what I 
have seen suggest that they have put a good deal of time and 
attention to securing that facility from any kind of an 
internal or ground attack.
    Ms. Waters. Mr. Chairman, let me just say that I heard you 
mention the piece of legislation that you have before our 
committee, the Judiciary Committee, and that you have talked 
with Chairman Sensenbrenner about it. We really do need the 
sharing of information and whatever it takes to get clearances 
for our local officials they need that also. They need to 
understand--we cannot coordinate without that kind of 
information being shared with everybody, and I will support 
that bill, certainly, when it comes before our committee, and I 
think it is a good idea that you have.
    Mr. Horn. Well, thank you, and I hope that between you and 
Mr. Sensenbrenner we will get it through to the House, and 
thank you for that. I am going to yield myself 5 minutes on 
questions, and I will start with Dr. Bonta.
    If a massive biological or chemical attack were to occur 
today, is the California public healthcare system, with its 
hospitals and laboratories and the nonprofits in most cases, 
have the capacity to diagnose and treat victims? And throw in 
germ toxins that somebody could do with farming and all the 
rest.
    Ms. Bonta. Mr. Chairman, I think we have learned from this 
last several months that we are way ahead of so many States in 
other parts of the country. But we have also come to the 
realization that this is unprecedented in terms of really 
calling upon our best skills here in California to assess what 
could be potential threats against us and how to prepare for 
that. The public health system has been a fragile system 
throughout the country, and we have certainly the world's 
experts here in California and throughout the country, in terms 
of knowing their science and knowing their medicine and being 
able to provide the best in technical services for patients. 
But a lot of public health is just the grunt work, I would say, 
of going out into communities and doing the field surveillance, 
the epidemiology and talking, communicating with communities 
and being able to assess an outreach services. And in that, you 
can certainly have room for improvement. This money that has 
just come to us provides us a wonderful opportunity to do some 
of this planning and to continue to jump start what we have 
already started and in the process.
    But, you know, some of the questions that have been 
addressed earlier come to mind that we were lacking in that 
communication system. Certainly, after September 11th, here in 
California, the rest of the country as well, specific to public 
health. We were able to have conference calls with the Centers 
for Disease Control, which every State was on a secure 
telephone line with Tommy Thompson as well as--Secretary 
Thompson as well as Jeff Copeland from CDC.
    We needed to copy that, and we did, in California so that 
all 61 health jurisdictions were on a secured line in which we 
could talk with them as public health experts here in 
California about what were their needs, how could we plan for 
them. It called to mind that we really need to work on these 
communications systems and be able to enhance what we are 
doing. We are doing that through a California system. We need 
to be able to look at disease in communities with a different 
type of approach than in the past, with an urgency so that if 
we see something going on in Riverside and something is 
happening in Jalusa, that we be able to say, ``We have 
something here that needs further investigation.''
    Certainly, our scientists are excellent, but the salary 
scales for them have not been competitive. We frequently have a 
private industry that lures them to work for them. We need to 
be able to look throughout the country, enhancing what we do 
for our workforce development as well. So all that is to say 
that I think that we are well on the road in terms of our 
preparedness, but we need to continue to be very vigilant and 
certainly to work with this new money to be able to do some of 
the work that we anticipate needs to be accomplished.
    Mr. Horn. Well, that is very helpful. Mr. Yeskey, with CDC, 
would they be able to handle what potentially might be germ 
samples or whatever? And are you prepared to do that?
    Mr. Yeskey. We are prepared to do that and assist the 
States, our traditional partners of State health departments, 
in managing this. You mentioned the laboratory samples and 
items like that. We have a laboratory response network 
nationwide that includes all the State's public health 
laboratories. So if one area gets overwhelmed with sampling or 
requests for samples, we can identify labs that can handle that 
surge and run those evaluations. We have response teams that we 
can send at the State's request to assist them in their 
identification, their control and containment of any outbreak, 
and then we have the Health Alert Network and EPI-X 
communication systems that are for the State health 
departments' use in providing those communication mechanisms 
and those four-on-four communications.
    Mr. Horn. On that point, the progression of a particular 
disease, let us take smallpox, is it at some curve of time that 
it could be done within a couple of weeks, or would it just be 
as you are talking about, if it is in Jalusa or Ureka and it is 
out here in Riverside somewhere, there must be something going 
on. So how do we deal with that, that you sort of see something 
here and something there? Are we really sure?
    Mr. Yeskey. I think in the case of smallpox any single case 
of smallpox is what we are going to consider a national 
emergency and take aggressive measures to work with the State 
health departments in trying to identify not only the cases but 
the contacts of those cases so we can immediately implement 
activities with the State health departments in controlling 
that epidemic. Other diseases that may have a naturally 
occurring basis, we are going to pursue aggressively with the 
States again in trying to identify the clinical cases, trying 
to identify the sources and work with the States on the lab 
side, on the epidemiology side and on the response side to help 
identify the nature of that incident, whether it is an 
intentional incident or a naturally occurring incident.
    Mr. Horn. Dr. Bonta.
    Ms. Bonta. If I might add, Mr. Chairman, in California, 10 
years ago, through the foresight of the legislature, we were 
able to do a planning process for a new State public health 
laboratory. It just opened this spring. It will eventually 
house 1,300 people in Richmond, California. It has a viral and 
infectious disease lab, microbial lab, genetic disease lab and 
environmental health. It is a state-of-the-art, it is able to 
go to level three capacity in terms of containment. We were 
very fortunate to have this up and running before this incident 
occurred. That acts as our hub here in California and we work 
with over 38 public health laboratories throughout the State to 
coordinate activities. But I know that my colleagues from other 
States are very jealous about us having this lineup. It 
certainly was something that was well-needed and will continue 
to be very well-needed.
    We are looking, as well, certainly in discussions with CDC 
and with Department of Defense, at what other laboratory 
capacities we will predict we may need in California in future 
years. And, certainly, there has been discussion at times about 
whether or not level four capacity should be considered.
    Mr. Horn. To what degree will the Veterans' Affairs 
hospital facilities help in this? Is there a plan in California 
or southern California?
    Ms. Bonta. Yes. In fact, as part of our moneys from both 
HRSA and CDC, we are directed to work with the Veterans' 
Administration hospitals. As you know, in Long Beach, we were 
doing that. We will do that here in Los Angeles. Ken Kaiser, 
who was the former director of the California Department of 
Health Services served in the capacity of being in charge of 
the Veteran systems in Washington, so we had to put some 
contact with him. Here in the County of Los Angeles, Dr. 
Gaithwait came also from the Veteran system. So we have had 
coordination at a local level and at a statewide level, and we 
will continue to have that as well with the Federal facilities.
    We also have here in California State-run veterans nursing 
homes. We are certainly working with Secretary Bruce Fesa in 
the California Department of Health Services and California 
Department of Veterans' Affairs to coordinate services for 
veterans but also to integrate that system. And it is very 
crucial for us to be able to work closely with them.
    Mr. Horn. Thank you. Any comments in response to any of the 
questions we have heard so far from the panel? And then we will 
go to 3 minutes now so everybody can get in a question. Yes, 
Mr. Jones?
    Mr. Jones. I have a response to one of the questions I 
think Congresswoman Watson mentioned was suggestions that were 
no cost or real low cost. Technology transfer from Federal 
agencies in the military to local and State government would be 
very helpful. As a member of the Gilmore Commission for the 
last 3 years, I have been privileged to be present for a number 
of classified briefings where there were a lot of hardware, a 
lot of abilities for detecting chem-bio and these sort of 
things that wasn't available. We even asked the question, could 
we buy it at the State or local government level if we pay for 
it? And the answer was no.
    So, I think it is an area, and certainly there is a 
national security concern on some equipment; so be it. We need 
to relook at, in light of the threat that we face now, as all 
disasters and terrorist events are local. Many of the Federal 
resources won't be available to local government or State 
government for days. Our urban search and rescue program is set 
up on a 2-hour and 6-hour launch, and then you have flight 
time. We are fortunate here in California we have days, but 
some of these Federal resources will be several days coming in, 
and so we need a very robust local and State ability to 
respond.
    The other issue I was going to mention is there is 
currently no directory of Federal training programs. That would 
be very helpful, I think, in sorting through some of the maze 
of being able to identify some of these programs for local 
government. Denigration of ICS and Unified Command has not bee 
adopted by all Federal agencies, and we need, at least an 
approach should be made in that level to move that forward.
    The other one is to recognize that as we go through all of 
our planning and work, that we keep in the back of our minds, 
at least, that terrorism isn't just the ones that we're 
horrendously worried about right now, but they run the gamut. 
As we harden our defenses and work very hard to prepare, we 
will very likely be pushing terrorism into areas not seen so 
far. So we need to make sure that we consider cyber, 
agricultural, nuclear, chemical, biological and some of the 
conventional approaches as we go along in the process. Thank 
you very much.
    Mr. Horn. OK. Thank you. Ms. Watson, 3 minutes for your 
best shot.
    Ms. Watson. Thank you for that comment. This is going to 
Patricia Dalton, because she might be the best person, the GAO, 
to address it. But I got a call this morning from a very upset 
parent who wanted to know--because his daughter was going to 
school in Italy, and as you know, over the last 24, 48 hours 
there have been announcements that there is some kind of 
planned terrorism attack. As we go about developing strategies 
and preparedness, what is the possibility of including all of 
our territory abroad, our embassies?
    Ms. Dalton. I think one of the important things in 
developing a strategy is going to be developing a communication 
plan that provides information to everyone as to what needs to 
be done or what they personally should be taking action on, as 
well as governmental organizations and the private sector, and 
down to the individual citizen. Our plan has to be encompassing 
all of the United States and its citizens so that no one is 
left out of that plan, which is why we have recommended intense 
coordination at an interorganizational level, at an interagency 
level, at an intergovernmental level that also takes into 
account fully the private sector and the individual citizens.
    Mr. Horn. OK. Ms. Millender-McDonald.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    Ms. Dalton, I would like to raise a question with you 
regarding--the GAO has repeatedly criticized the massive 
fragmentation and overlap of Federal efforts to combat 
terrorism. Have you made specific recommendations to reduce 
this fragmentation?
    Ms. Dalton. One of our recommendations has been to 
establish a focus point for counter terrorism and homeland 
security. As I stated in my statement, the establishment of the 
Office of Homeland Security has certainly been a step in that 
direction, and we would hope through the national strategy, 
that is supposed to be delivered sometime this summer 
reportedly, that it will look at all of the organizations 
within the Federal Government and their responsibilities, 
identify what the objectives are for the national strategy, 
establish performance goals that then each organization would 
fit into. It may require some realignment of Federal 
organizations in order to best meet our goals.
    Ms. Millender-McDonald. Last, Mr. Castleman, recently, the 
interagencies of the Federal Government submitted a classified 
report to Governor Ridge. Is there any way we can have an 
unclassified version of this report developed on for your local 
and State agencies?
    Mr. Castleman. I can't speak for the Office of Homeland 
Security, but my understanding is that they are working on a 
non-classified version.
    Ms. Millender-McDonald. They are working on one now?
    Mr. Castleman. That is my understanding, and we will 
determine for sure and provide for the record that is in fact 
the case.
    Ms. Millender-McDonald. I think it must be. As we 
recognized, given September 11th, that a lot of our Federal 
agencies were not engaging in interagency collaboration. Well, 
certainly, now we know that this should not only just be at the 
Federal level, but it should be throughout the country. I would 
like to have some response or if you could report back to me as 
to whether or not that is going to be done. Thank you, Mr. 
Chairman.
    Mr. Horn. Thank you. Ms. Waters.
    Ms. Waters. Thank you very much. You may have answered 
this, so let me ask again so that I can understand. As I 
understand, there is no single comprehensive plan for improving 
homeland security in California. However, my staff told me that 
actually it has received 20 percent of the bioterrorism funding 
here and will be able to receive it in 6 months after 
submitting a plan for the use of the response. Also, there is 
some danger in having a plan that can be accessed by others who 
would somehow interfere with the plan. Well, how do you this? 
Do we have a plan that we are going to submit, and is that 
classified? Is the Governor's Office responsible for the State 
plan?
    Mr. Jones. That is a very difficult area to be dealing 
with, quite frankly, because of the community right-to-know 
legislation. I am sorry, it is very difficult because of the 
community right-to-know legislation in some areas. What we have 
done on a statewide level is we received a grant from the 
Federal Government in approximately 1999 to work on both a 
vulnerability assessment statewide, local government on up 
through the State, but also a statewide, 3-year strategic plan 
on needs assessment. We were in the process of that when 
September 11th came. We were asked by the Federal Government to 
submit those plans in very basic form by December 15 of last 
year, which we did--a very, very skeletal plan. We are still 
proceeding on the development of that plan, as far as the in-
the-weeds type of needs assessment.
    What we have done, because our SSCT, our State Strategic 
Committee on Terrorism, is through our law enforcement branch 
within OES, we have deemed it to be law enforcement sensitive. 
So it is not for public dissemination. Many of the 
recommendations that we submitted we did put on the Governor's 
Web site at his request. The other plan that is being discussed 
is a separate plan, and that is a plan as to how to utilize 
this Federal money that is coming through Health Services, and 
they are working very hard on something to get that done so we 
can get that money to the local government.
    Ms. Bonta. If I might just comment on the healthcare 
portion. The Federal Government gave us guidelines in terms of 
what we need to have appear. So, for instance, they were asking 
the area of reporting of infectious diseases that we ensure 
that it is not--a physician is not reporting a disease that we 
need to take note of 3 days later, that it occurs immediately. 
So we changed our regulations, for instance, to allow for this 
capacity, this laundry list, so that we are well on our way 
toward completing some additional work.
    But part of the recommendations, for instance, that were 
public was the recommendation that we have an inventory of 
specialists here in California, so infectious disease 
specialists who might be available in time of a State emergency 
to assist us, how we locate them quickly, where could we 
utilize them, what is the credentialing in the hospitals or 
other institutions so that we quickly have this cadre of 
trained professional people, not necessarily the State system, 
but working for private institutions, but we utilize their 
expertise as well. Those are the planning methods currently in 
process to be able to develop that kinds of system.
    We are also looking at other departments, for instance, to 
have continuing education courses. Many physicians, nurses, 
health educators, physical therapists, all the disciplines are 
looking to upgrade their skills and identification of issues 
related to the bioterrorism. Looking at the possibility to have 
that online, to make it simple, so that all of our 
practitioners here in California are ready and are available 
and that we have inventory as well of knowing where is the 
training occurring and getting that information out.
    So some of it is in regards to that. Other areas are much 
more complicated in terms of, for instance, hospitals where 
they are having individual disaster preparedness plans. And we 
were the first State in the country to actually have on our 
Internet system guidelines for hospitals in terms of 
bioterrorism.
    Mr. Horn. Let me conclude with one question that a lot of 
people are nervous about, and that is smallpox and the fear 
that some countries have smallpox germ warfare, if you will, 
and I would like to know if we have vaccines for that? And the 
question is those of us that got our smallpox vaccine 50, 60 
years ago, in this case, what, if anything, should be done? Is 
there a worry here that the various rogue States that create 
some of this, what are we going to do about it and how do we 
deal with it? I mean if we have the vaccine, does it do any 
good for those of us when we had smallpox that many decades 
ago? What is the answer, CDC, California?
    Mr. Yeskey. A number of items to address your question. I 
guess the law enforcement and intelligence communities will 
have to tell us about the level of the threat. What CDC has 
done, No. 1, is they have accelerated the vaccine production 
program. Before September 11th, we wanted to augment the 15.4 
million doses that we have stored and available for use, so 
they entered a contract with a vaccine producer to additional 
vaccines. Since September 11th, that program has been 
accelerated, not only in the timeline, but in the quantity of 
vaccine to be produced.
    Second, CDC has released to States and other healthcare 
organizations a smallpox response plan that describes what 
strategies could be used in the case of smallpox release, 
domestically or globally. That plan will be updated regularly 
as we get additional threat information or additional vaccine 
on board. CDC also has done training for responders. Started 
with CDC responders and response teams to go to the field and 
assist State health departments with the smallpox response. But 
we have expanded that training to include State health 
departments and other Federal responders who might participate 
in a smallpox response.
    Mr. Horn. Any other comments on this particular--Dr. Bonta.
    Ms. Bonta. I think that initially we weren't sure whether 
or not someone who was vaccinated 50 years ago whether or not 
they would need to get another vaccine. Certainly, there hasn't 
been experience with that because we were fortunate that 
smallpox was eradicated from the world. We are having some good 
news in terms of some of the limited research that has been 
done on this, so we probably have some effectiveness in terms 
of community in our population. And, certainly, Centers for 
Disease Control and Department of Health and Human Services 
have taken the lead in this in establishing what would be the 
best way to protect our population.
    I think, you know, the real reality is a circumstance where 
we would need to consider this. We might look at rings of 
protection pertaining to where the incident occurs. Certainly, 
it is difficult if it were to be in multiple communities, 
because you would have to be vaccinating multiple communities. 
But you want to be able to prioritize and use what vaccine you 
have appropriately, quickly to those populations that would 
present more of a risk. Here in California, we are certainly 
working very closely with the Federal Government in determining 
what is the best way for us to anticipate, to plan, to protect 
our public.
    Mr. Horn. Thank you. And I just want to say that you have 
done a wonderful job here in making this presentation. And, Ms. 
Dalton, I will let the General Accounting Office have the last 
word. And what have we missed, if anything?
    Ms. Dalton. Mr. Chairman, I think this has been a very 
comprehensive presentation. I think it has emphasized some of 
the main points, as we move forward on a national strategy: The 
need for threat assessments, risk assessments in all areas of 
our activities and the need to continuously reassess what the 
risks are, what the threats are, where resources need to be 
placed, the need for coordination, particularly communication 
has been very much emphasized, and I think we need to work 
further in that area. I think we have seen some gaps here in 
the presentation in terms of communication.
    I would just end with the need for continuous improvement 
and learning. We need to institutionalize a lessons learned 
process, that we need to continuously improve from those things 
that are going to be changing and to learn from them.
    Mr. Horn. With that, we call up the second panel, and we 
thank the first panel. You might want to stretch a little.
    As this is an investigative hearing, we'll have all the 
witnesses rise and raise their right hand to accept the oath.
    [Witnesses sworn.]
    [Recess.]
    Mr. Horn. We have Lee Baca, the sheriff of Los Angeles 
County, a county of 10 million people. I remember when I was 
involved with the formulation of the National Institute of 
Corrections I learned many years ago that the sheriff in L.A. 
County has incarcerated people as at rates almost as large as 
the whole Federal system. I think that with a lot of the drugs 
they have gotten are responsible, Sheriff, but you have, about 
30,000 now incarcerated?

STATEMENTS OF LEE BACA, SHERIFF, LOS ANGELES COUNTY; JOSEPH E. 
  TAIT, EXECUTIVE VICE PRESIDENT AND CHIEF OPERATING OFFICER, 
      METROPOLITAN WATER DEPARTMENT; CASEY CHEL, DISASTER 
  PREPAREDNESS MANAGER, CITY OF LONG BEACH; TERRY L. HARBOUR, 
  CHIEF, LONG BEACH FIRE DEPARTMENT; ELLIS STANLEY, EMERGENCY 
 MANAGEMENT SERVICES, CITY OF LOS ANGELES; BERNIE WILSON, LOS 
  ANGELES INTERNATIONAL AIRPORT POLICE DEPARTMENT; AND LARRY 
        KELLER, EXECUTIVE DIRECTOR, PORT OF LOS ANGELES

    Mr. Baca. Around 20,000, give or take a few.
    Mr. Horn. Is it now 20? Good, crime is down. OK. Glad to 
have Mr. Baca here. He is respected throughout America, and we 
are glad to have you with us.
    Mr. Baca. Thank you. Good morning, Congressmen, and I would 
like to also say hello to the new Members of Congress who are 
with you; all of my favorite Members of Congress.
    So with that, let me start by taking off where you left off 
when you asked Ms. Dalton where the gaps are, and there are a 
few here that we need to address. I am here not only as the 
Sheriff of Los Angeles County but in the State of California 
the State is organized into seven emergency regions. Each of 
these regions is comprised of multiple counties. I happen to be 
in charge of Region 1. These are neutral aid regions wherein 
county resources are gathered and deployed into problem areas, 
such as fires, riots, floods, earthquakes. It is my 
understanding that California is the largest beneficiary of 
FEMA assistance in the Nation, because we have repeatedly major 
natural disasters and of course disturbances that require their 
assistance.
    When Los Angeles County was put on alert by myself on 
September 11th, we literally coordinated the ability to deploy 
thousands of fire fighters as well as police officers under a 
single mutual aid plan that you heard some comment about from 
prior speakers this morning. We are well prepared in terms of 
our ability to organize ourselves. But your core and your key 
question here today is how effectively are Federal, State and 
local governments working together to prepare for a biological, 
chemical and nuclear attack?
    The answer to that question may never be known unless one 
occurs. However, we are going through the proper procedures to 
answer this question, because, one, we don't have any gaps 
locally that I can identify, other than the resources of three 
things. One, first-responders need to talk to each other at 
command sites of incidents. We can't do that now, and I don't 
think this even capable of being done in too many places in the 
Nation. Therefore, what we need is the Federal Communications 
Commission to be a participant in ensuring that the radio 
frequency spectrum that is so valued in this Nation not be just 
given to the private sector on any request that the private 
sector has, that the public safety system of our Nation depends 
on radio communication.
    Myself along with every major city chief of police in the 
United States have met recently in San Antonio, Texas in 
February this year on this very issue, that when the Federal 
agencies and commissions who have virtual control over a 
resource, such as radio frequency spectrum, are not actively 
engaged in discussing their responsibility to solving the 
problem, this causes a major concern for me, as it does every 
other major city chief in the United States.
    Second, we look forward to the Office of National 
Preparedness, under FEMA, to get some guidelines out so that we 
can start doing what we need to do to further our ability to 
provide first-responder services. And so we wait. The core 
Federal mission, as it pertains to justice, should not 
overshadow local responders' ability to perform rescue and 
public safety services, as it pertains to homeland security. 
The whole idea of homeland security when you boil it all down 
is how well local fire and police and medical service is going 
to be able to perform. There is no other group of resources 
that are readily deployable, other than what are locally 
defined.
    When it comes to the specific report I prepared,there are 
specific elements common to how one addresses an attack. I have 
spoken essentially about mutual aid and first-responder 
capabilities of this county and the State; they are second to 
none. This State is the best prepared State. Thanks to our 
Governor and our Attorney General and our Department of 
Justice, as well as the Office of Emergency Services, 
everything is in place. I also want to say that the California 
Anti-Terrorism Information Center, which I Chair for the State 
of California, our intelligence gathering is seamless with the 
FBI. The FBI is very cooperative, and we do things on a high 
level of responsiveness, interactiveness, and I compliment 
Director Iden of the local FBI office to be my strongest ally 
in making sure this occurs.
    The next most important thing that we do here is our 
Terrorist Early Warning Group Program, and that is first-
responders need to be tied to the intelligence links, and I 
have said we are, but then we also have to coordinate with the 
medical group as to what goes on when fire fighters and police 
officers get out on the scene of a disaster or a terrorism 
attack. And so our entire planning has been bolstered by the 
Board of Supervisors who have brought forth 16 more technical 
resources to the Terrorist Early Warning Group. These are 
people who are 30 in number who do nothing but plan for every 
possible attack, through scenarios, through gathering of 
information of possible types of attack. When we talk about the 
types, as you know, there are chemical, biological, 
radiological and nuclear forms of concern that this group is 
responsible for organizing scenarios and response strategies in 
the event such an attack occurred.
    So in closing, the key here is that I have tasked a group 
of people from the private sector, the community, to be part of 
a Homeland Security Advisory Group for Los Angeles County. This 
is Chaired by Mr. Mark Nathanson, and Orange County, I have 
asked Sheriff Carona to do the same, and he has done the same. 
So when you look at Ms. Dalton's overall GAO report, which I 
think is a core document here, along with the FEMA document, we 
are doing everything we can to interface federally, at the 
State level and within the County of Los Angeles and then the 
bi-county of Region 1, and we have already solved our 
intelligence sharing problems up and down the State with 300 
police departments and 58 sheriffs departments. But now we have 
to reach out to our business community, to our general 
neighborhoods, and we have to extend the strategy of homeland 
security under the umbrella of the Terrorist Early Warning 
Group, and that is my next effort that I have put forth in the 
County of Los Angeles.
    Thank you very much. I do have another meeting. I am not 
sure how critical it is if I leave, but I beg your permission 
to do so.
    [The prepared statement of Mr. Baca follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Well, thank you. If we have any questions, I will 
send them to you, and we can put it in the record at this 
point.
    Mr. Baca. Thank you.
    Mr. Horn. Thank you for coming. We're delighted to have 
today the individual that is in charge of our water. We have 
not had good testimony on that during our tour around the 
Nation. Joseph Tait is the executive vice president and chief 
operating officer of the Metropolitan Water District. I learned 
when I was a Senate staff aid in the 1960's the power of the 
Metropolitan Water District and the quality of people for its 
board. And a lot of things were done in the 1950's starting 
with Earl Warren and Gooding and Edwin Knight and so forth. And 
Senator Kuchel, that is K-U-C-H-E-L, who spent a lot of time on 
the water and how we get it to Los Angeles and how we get it to 
California, generally. So we're delighted to have you.
    Mr. Tait. Thank you, Mr. Chairman and members of the 
subcommittee. I am delighted to be here as a representative of 
the Metropolitan Water District. I would also, Mr. Chairman, 
like to thank Bonnie for her information that she forwarded to 
us while we were in Washington, DC, and the support that she 
gave us while we were back there last week.
    As you are all showing during this recess your commitment 
to this issue, Metropolitan has also shown its commitment to 
security for many, many years. Mr. Chairman, you started this 
briefing mentioning that the events of September 11th had 
changed our lives but not brought the country or business to a 
stop, nor did it bring the Metropolitan Water District to a 
halt either. Just coincidentally on September 11th that was our 
monthly scheduled board meeting where 26 directors had to come 
from the 6-county service area to the downtown headquarters 
building here in Los Angeles. And if you can imagine what the 
chaotic environment was in a downtown high-rise building that 
day, you can imagine what the atmosphere was like in that board 
meeting. However, the directors did decide to go on with their 
board meeting, they did not cancel their board meeting as a 
result of the events, and the Metropolitan has also taken that 
theme along with our 26 member agencies in supporting security 
improvements.
    Just to give you a little background on Metropolitan, the 
26 member agencies and cities and special districts that we 
serve really make up the 6-county service area which 
Metropolitan services. We have a 5,200-square mile territory 
running all the way from the Colorado River to the Mexican 
border, up the coast to the Ventura County line and then back 
down to the dessert into Riverside and San Bernadino County. So 
we have pretty much the entire bottom third of the State. We 
supply the water that impacts the lives of about 17 million 
people.
    As the representative of Metropolitan today and being the 
public steward of the region's water supply and infrastructure 
network, we have acted prudently and swiftly to secure the 
precious resource that we all use, and that is water. Several 
things that Metropolitan has done since September 11th have 
been significant, although under the secrecy of confidentiality 
as much as we could get away with. We have completed two 
vulnerability assessments long before they were called for or 
required or directed. Our board has approved $5.5 million in 
security improvements. We have not asked for reimbursement, we 
are not here today with our hands out. Our next security guard 
contract to cover those six counties will basically double our 
costs, from $11.9 million to about $20 million over 3 years to 
cover security for this service area.
    We have taken other steps. I will give you a couple of 
examples. Our aircraft that fly patrols over our water system 
every day have already had two engines replaced in the last 6 
months because of the exhaustive patrols that we have embarked 
upon on our service area. We have also--we are one of the first 
agencies anywhere to take down critical maps and infrastructure 
details off of our Web site when other folks were calling us 
wondering why we did that. It was for logical and prudent 
reasons, as we saw, but some folks weren't really understanding 
why we did that.
    We listed five areas, Mr. Chairman and members of the 
committee, where this committee can come to the assistance of 
Metropolitan and the 17 million residents that we serve. And 
those five areas are we really need to partner with our Federal 
agencies. Those Federal agencies are such as the Department of 
Defense that could forward to us the list of those chemicals 
and those contaminants, those exotic contaminants that exist. 
But because the water district has not always been on the radar 
screen of national security, we do not have all of that 
information that we know exists, and that could be a great 
benefit to us in preparing for such events.
    Research and development of quicker methods to monitor 
those contaminants. Currently, right now, in that $5.5 million 
board appropriation, we plan on accentuating our remote site 
monitoring throughout our service area that gives our treatment 
plant operators a heads up long before that water would arrive 
into the urban metropolitan area so that we can taken adequate 
measures to respond.
    Currently, we understand that through our meetings last 
week in Washington EPA plans on reimbursing some of us who have 
conducted vulnerability assessments and that reimbursement 
level will be capped at approximately $125,000. Well, as you 
can see, Metropolitan has spent upwards of $11 million more for 
security than we did in the prior 3 years, and so you can see 
the impact that it will on us.
    Federal funding for a demonstration program for alternate 
water supply protections and those protections would be 
whatever research, whatever monitoring, whatever testing, 
whatever new technologies we may employ. Our system is so large 
and spread out that we would probably be a pretty good test lab 
for firms that are proposing these type of devices to help us 
improve security.
    The last one is our water supply is heavily dependent on 
what the Bureau of Reclamation security measures and operations 
on the Colorado River entail. Right now the Colorado River 
obviously impacts many western States, and Metropolitan gets 
about half of our supply from the Colorado River. So what 
happens on Parker Dam and Hoover Dam and through that watershed 
is very critical to southern California and the 17 million 
people that we serve. So the funding for the Bureau and for 
their improvements would be very beneficial.
    Mr. Chairman, you have my written testimony, and I won't go 
into detail in that testimony. Again, any way that Metropolitan 
can help this subcommittee or any other Federal agency, we are 
here to do so. Thank you.
    [The prepared statement of Mr. Tait follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Horn. Well, that is very helpful. I might add for all 
of you that haven't been before us before that once I call on 
you your full statement is in the hearing record at this point, 
and you can summarize it or hit the major points that you have. 
A lot will come out in the question period. There are some very 
good questions I have got for a lot of you.
    We go with Mr. Chel. Casey Chel is disaster preparedness 
manager for the city of Long Beach.
    Mr. Chel. Good afternoon, Congressman Horn, members of the 
committee. Thank you for the opportunity----
    Mr. Horn. Are you any relation to the great Fred Chel?
    Mr. Chel. That is my uncle.
    Mr. Horn. Huh?
    Mr. Chel. That is my uncle.
    Mr. Horn. Yes. He was great.
    Mr. Chel. Thank you. The city of Long Beach began preparing 
for a weapons of mass destruction event in 1998 as part of the 
Nunn-Lugar-Domenici Domestic Preparedness Program. At that 
time, over 200 individuals with 49 different agencies 
participated in a training program that they could take back to 
their agencies to train their personnel to respond to such an 
act. Long Beach, as part of the original 120 cities, also 
received support from the Department of Health and Human 
Services and the Department of Justice to create a treatment 
and response cache of emergency medicines to treat 1,000 
patients should the need arise to better prepare for a 
coordinated response. This has led to three tabletop exercises, 
one functional, one full-scale and--that we have conducted over 
the past 2\1/2\ years.
    The city has also developed a committee comprised of every 
key city department, local hospitals and the FBI to continually 
focus on the planning and coordination efforts of the city of 
Long Beach. A response cache of emergency supplies and 
equipment has also been created and stands ready to respond 
should the need arise. We as a city also participate in the Los 
Angeles County Terrorism Working Group and Los Angeles County 
Terrorism Early Warning Group with the Department of Health and 
Human Services and the MMRS Program.
    The efforts of the city have been significant. The 
determined threats have been identified, plans to secure and 
protect these threats are ongoing, but since September 11th the 
increase in security at our port, the water storage facilities 
and the airport, as well as the significant security and 
coordination efforts throughout the city, have created a 
significant drain on the staff and funds for the city of Long 
Beach.
    Throughout all these efforts, several areas continue to be 
a concern to the city of Long Beach. These areas include the 
clear need for funding to support local hospitals in developing 
response plans, obtaining emergency supplies and 
decontamination equipment. Training must be addressed. Funding 
to support the extended efforts of local planning and 
coordination efforts, funds to upgrade the Department of Health 
and Human Services laboratory in the city of Long Beach to be 
able to determine the credibility of determined potential 
threats and products quickly and accurately, funding to create 
sustained and local hazardous materials response team for the 
city of Long Beach. We currently do not have a dedicated team 
within the city. Increased funding for port security, including 
the addition of personnel in and around water, the boats and 
other equipment, to patrol the ports and establish a 
coordinated response plan between our agency and the Coast 
Guard, funds to train emergency response personnel to better 
protect the general public and, finally, the funds to sustain 
the existing programs that we must find. The constant updating 
of medicines and the ongoing training costs must be dealt with. 
These costs are significant and yet unfunded to us.
    Although the efforts of the city of Long Beach have been 
significant, much more must be done. To truly meet the needs of 
the community, funding must be found to continue the efforts 
that have occurred so far and expand the program to better meet 
the needs of the community. Unfunded mandates and the need to 
plan, prepare and response to any potential weapons of mass 
destruction event are significant. As I said, even though the 
efforts have been significant, the needs are many, and we look 
forward to the assistant that we are going to be getting. Thank 
you.
    [The prepared statement of Mr. Chel follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Thank you. That is very helpful, and I hope you 
have got Pine Avenue, where I live, in good shape. Don't let 
the palm trees fall on us.
    We now go to Terry Harbour, chief of the Long Beach Fire 
Department, a very fine department and one of the best in the 
country. So welcome.
    Mr. Harbour. Thank you very much, Chairman and members of 
the subcommittee. It is a great honor to be here, and I thank 
you for this opportunity, particularly with your willingness to 
hear what the local agencies have as needs and concerns.
    I would like to focus on three primary areas of concern for 
the city of Long Beach in the fight against nuclear, biological 
and chemical terrorism. As you have heard, the efforts of Long 
Beach have been significant, but more is needed to protect the 
community and its citizens against terrorist acts. The Long 
Beach Health Services, the police department and the fire 
department have essential needs to combat terrorist activities. 
I would like to focus and outline those needs that could be 
funded through your efforts at the Federal level.
    First of all, the health department needs to upgrade their 
existing laboratory to a Level B facility. The equipment needed 
would include a chemical analyzer and a biological analyzer. 
This equipment would allow for anthrax testing, a quick look 
with a 2-hour turnaround and a culture in 24-hour turnaround. 
Presently, this type of testing has to be sent to L.A. County, 
and there is a delay in the time factor to do that. 
Additionally, the health department would like an epidemiology 
division. A full-time epidemiologist and additional test 
equipment, this would enhance the surveillance and early 
detection of communicable diseases of unusual occurrence, and 
that is what they are really looking at, the unusual 
occurrence, so that they get an early heads up if there is some 
type of pattern forming.
    The police department's goal is to get two fully equipped 
police boats staffed with armed officers and including 
electronics, weapons and the state-of-the-art surveillance 
equipment. These vessels would provide on-the-water security 
for the Port of Long Beach and the adjacent waterways. As you 
are aware, the marine waterways and the ports are a major area 
of concern, and enhancing the security in these areas is 
paramount. This would be a joint effort between the U.S. Coast 
Guard, the Port of Long Beach and the Long Beach Police 
Department.
    Our last area of concern for the city is a Hazardous 
Materials Response Team. You heard Mr. Chel speak about it. 
Currently, the city of Long Beach does not have, possess the 
resources to mitigate a hazardous materials emergency on its 
own. We must rely on outside agencies that are dedicated to 
other communities. Long Beach is the largest city in the State 
of California that does not have a Hazardous Materials 
Emergency Response Team. Simply stated, if one of our fire 
fighters or a civilian was to go down in a hazardous material 
spill or cloud, we currently are unable to safely perform an 
extrication rescue. Funding for this program would be the 
purchase of a vehicle, equipment and provide the necessary 
training for 28 fire fighters. It would be a 24/7 service for 
the Port of Long Beach and the city. This proposal is based on 
the expectations that the port and the city of Long Beach would 
jointly share the annual funding for this port-based Hazardous 
Materials Team.
    In addition, the fire department is the lead agency for 
disaster preparedness in the city of Long Beach. Additional 
staff is needed in disaster preparedness and for training in 
coordination with the local, State and Federal agencies, as you 
heard Mr. Chel state.
    These are the three primary needs that the city of Long 
Beach has identified as critical to taking the level of 
awareness and preparedness for terrorism. Again, thank you for 
this opportunity to present.
    [The prepared statement of Mr. Harbour follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Well, that is very helpful, and let me just ask 
one question on your testimony now so we can get it in. Did you 
talk to your counterpart in Baltimore with the problems that it 
had when a train was going under their tunnel there, and they 
really didn't know what was in the train. I am not sure they 
have pulled it out yet, but it was a real mess and a lot of 
problems, and I just wondered if the----
    Mr. Harbour. I personally, no, have not talked to the 
representatives in Baltimore. I am aware of the situation and 
what they had. what you need to realize is that what is on the 
highway and it is placard usually, if it is in a tank truck or 
something like this, which gives us a basic identification type 
of material and is the NFPA placarding standards and the DOT 
standards, but a lot of times you just don't know what is in 
those containers and----
    Mr. Horn. Well, is it a crime if they don't post the 
hazardous materials so the police department and the fire 
department will know what they are facing?
    Mr. Harbour. Well, yes, it is a crime, but the placarding 
is fairly general. The DOT placarding you will see on your 
tankers. It could be a 1075, what happens to the liquified 
petroleum gas. But the real test is when you get the manifest 
off the truck. In that instance there, there was no way that 
they could get that manifest. The key element of the hazardous 
material is isolation and then identification, and you have to 
identify what you have before you can move forward.
    Ms. Watson. On that issue?
    Mr. Horn. Yes, sure.
    Ms. Watson. We had a law passed in California while I was 
there in the senate that said not only is it hazardous material 
but you had to document on the label. And you need to pull that 
up and see if it is being enforced, because under this new 
threat, not only would it destroy the vehicle and other 
vehicles around but road conditions. Transportation would be 
affected too. So you need to followup to see if you are covered 
and if the law is being enforced.
    Mr. Harbour. Yes, ma'am.
    Mr. Horn. While we are waiting for the next witness, 
Patricia Dalton, take Sheriff Baca's place so you have got a 
place representing the Comptroller General of the United 
States.
    OK. We will now move to Mr. Stanley. And Mr. Stanley is the 
Emergency Management Services, city of Los Angeles, so you are 
in this building a lot, right?
    Mr. Stanley. Yes, sir. Thank you, Mr.----
    Mr. Horn. Great place. I haven't been in it since all the 
modifications have been done.
    Mr. Stanley. Well, welcome back. Thank you, Mr.----
    Mr. Horn. The fact that we are freezing is beside the 
point. [Laughter.]
    Ms. Watson. Catching pneumonia in the meantime.
    Mr. Horn. That is right. Sounds like we are back in the 
Carter administration.
    Ms. Watson. It has got a mind of its own.
    Mr. Horn. Well, we are delighted to be here.
    Mr. Stanley. Thank you, Mr. Horn; we appreciate it. And 
members of the committee, thank you for allowing us to 
participate in this process. We recognize that State and local 
input is essential to the success of any homeland security 
efforts.
    We also--from the standpoint of the local Emergency 
Management Office, we respect the Nation's ability and effort 
to bring forth the Homeland Security Office, and it should be 
made one of the highest priorities in standardization and 
support of local emergency management agencies to serve as the 
integrating element of homeland security efforts regarding 
preparedness and response, recovery from--and the mitigation of 
consequences of a terrorist attack.
    In order to ensure that the preparedness and response to 
the consequence of any terrorist attack, there must be a common 
infrastructure at all levels of government which has as its 
single objective the planning for and integration of all 
aspects of the potential incident. There is and has been 
historically such a structure and competence in every level of 
government, as well as the private, for-profit and non-profit 
sectors.
    The structure is integrating the emergency management 
system. The core component of the system is the State and local 
emergency managers who have been responsible for ensuring the 
preparedness, response and recovery capability of their 
jurisdictions. Regrettably, while this system represents the 
single best capability for implementation of a national 
homeland security strategy at all levels of government, the 
State and local elements of that system has been significantly 
underfunded for decades.
    Funding programs such as FEMA's State and Local Assistance 
Program, the Emergency Management Assistance Program have 
consistently only been available to minority agencies needing 
support and have only been funded at a fraction of the 
authorized amount. As a result, local agencies are consistently 
understaffed, often part-time and even volunteer positions. 
They are often very weak at the organizational structure of 
local government, which makes it difficult for them to 
accomplish jurisdictional-wide coordination and planning.
    Their function is often not understood by local officials, 
and it is often confused with that of the emergency response 
agencies, making it virtually impossible to gain the support 
necessary to provide for a full service integrated program. 
They seldom have the resources to effect the vital job of 
performing and preparing the general public for disaster.
    I mention that as a general overview of what is going on in 
our country and would like to take a couple seconds to explain 
in Los Angeles and in California we have a very comprehensive 
program. The city of Los Angeles has what is called an 
Emergency Operations Board in which many of the departments, 
including my colleagues of the harbor and the airport, make up 
that particular board. We meet regularly. Ironically, in 
California and in our local jurisdiction, we have a lot of 
incidents. You might recall on September 9 we had a 4.5 
earthquake here in the city of Los Angeles. On September the 
10th, we did a bioterrorism exercise here in the city as part 
of our ongoing training programs that we routinely do. And on 
September 11th, the world changed as we knew it.
    That is important because we do sit down as a community, 
and we have challenges. One of the challenges that Sheriff Baca 
indicated was working with the FCC, looking at those frequency 
issues. There is an issue now before the FCC, the 700 megahertz 
frequency, in which they are getting ready to auction off 
frequencies, and it is important that public safety be given 
their critical share.
    We have developed and have in place a critical 
infrastructure plan that met with all the elements of EMS, 
Emergency Medical, as well as our critical facilities, to make 
sure that we exercise them and their plans are in place. It is 
important that we keep those running. It is critically 
important, too, that FEMA's programs with domestic preparedness 
and especially the hazard mitigation grant programs on pre-
disaster mitigations be funded appropriately so that we might 
mitigate those things in our communities that are disaster 
potential.
    Again, thank you. Mr. Horn, I remember testifying before 
you about Y2K when you Chaired that Technology Committee, and 
appreciate the efforts that you have done there. And Ms. 
Millender-McDonald, we testified before you recently on some of 
these homeland protections. Thank you.
    Mr. Horn. Well, thank you. It is good to see you again.
    Bernie Wilson is the chief of the police department for the 
Los Angeles International Airport. I am a 2 million mile member 
of your fine airport.
    Mr. Wilson. We would encourage you to increase that mileage 
at any opportunity.
    Thank you, Mr. Chairman, for inviting me today. I am a late 
addition to the panel, so you have no written testimony from 
me. But I promise you that I will keep my verbal comments brief 
and I am available for written testimony should you need it.
    Before I start, I just wanted to mention something, that I 
had a chance to meet with Congressman Watson and Congressman 
Millender-McDonald after September 11th, and we had an 
opportunity to talk about the legislation that eventually 
created the Transportation Security Administration, and I just 
wanted to say that I am not going to take credit for the 
legislation, I am sure you talked to a lot of people, but here 
it is a few months later and I have heard other people say, 
``Thank you, it is everything I asked for.'' It is working out 
very well for us so far.
    I represent a very unique community. The airport has 50,000 
people or better that work there day in and day out at LAX, and 
we serve about a million people a year that come through the 
environment. It is a very unique business environment for that 
reason. It is an environment with all those people who don't 
actually live there, so we don't have residential to deal with 
on airport grounds. Of course our surrounding communities have 
issues with us, but it is a very unique business community.
    It is also a very unique people community. We have people 
who are part of our community who are only going to be with us 
for a very, very short period of time while they are changing 
planes or while they are catching a plane and then they will 
move on. But we still owe them a degree of professionalism and 
response capabilities to deal with them while they are with us.
    And, of course, it is a very unique security community. We 
have capabilities because there are certain Federal 
requirements that a lot of other communities don't have. We can 
literally lock the place up if we have to, as we did, as a 
matter of fact, after September 11th.
    But recognizing we have this unique community, we also have 
to look at the realities that we faced before September 11th. 
We are deeply involved with interagency planning and 
cooperation, and that includes Federal agencies across the 
entire Federal spectrum, as well as local agencies. We were the 
very early starters in getting training, what is know as the 
Incident Command System, which is a standby system for dealing 
with emergencies that was actually created by the Fire Service, 
and we owe a debt of gratitude to the Fire Service, and every 
time I see a fire chief I always thank him for it, so thanks, 
Chief.
    The Incident Command System may have made a tremendous 
impact on us after September 11th. We were able to see how it 
actually works from a real live incident on a massive scale, 
and for a period of about 3 months or better, we were in 
emergency mode all the time with not one display of ego, not 
one agency trying to claim someone else's work. It actually put 
them in place, and I am very proud to say that it worked for 
us.
    In our planning done for September 11th, we had a number of 
things that we did as a matter of regular course. We have 
annual tests for response to aviation incidents, whether they 
are aircraft crashes, action type incidents or security 
incidents. And we have also--we are kind of picking up the ball 
on the weapons of mass destruction potential. For example, we 
now own and possess three decontamination units, which is like 
a human car wash. You start at one end and you come out the 
other end all scrubbed and clean and with a change of clothing. 
And we were able to deploy one of those units for the 
Democratic National Convention on a standby basis. I believe we 
actually used it one time. We had a police officer who had 
something thrown at him. They didn't know what it was, so we 
activated it, he went through it and it worked for us.
    Obviously, the tests and the focus on aviation and airports 
was September 11th related, but I just want to emphasize that 
we were planning for a lot of things way before September 11th, 
and part of that planning does include talking to people. We 
are members of the Airport Law Enforcement Agency Network, 
which was started after the attacks in Vienna in 1985, and we 
were able to talk to any airport in the country by literally 
picking up the phone and talking to people on a first-name 
basis.
    Our challenges that we are meeting in the near future, 
besides continuing the recovery from September 11th issues, we 
are helping the Transportation Security Administration get 
setup. They have a very, very tough road ahead of them to 
create an agency out of nothing, and it is going to be a 
massive undertaking for them. We have received absolute 
cooperation from them, and I hope that we reciprocate the same. 
Thank you.
    Mr. Horn. Thank you. That is very helpful, and I hope my 
car isn't by the curb.
    Larry Keller is probably one of the outstanding port 
directors in the United States. I see him frequently because he 
wants that harbor dredge, and we will do the best we can. He 
and his rival next door, Long Beach, wherever you count it, one 
is one and the other might be two, so what is it this month? I 
mean are you one or two in the Nation?
    Mr. Keller. I have to say that this month, Congressman, we 
are one.
    Mr. Horn. Yes.
    Mr. Keller. But Port Long Beach isn't far behind.
    Mr. Horn. OK. I will tell them that. Give them a little 
poke. So it is a great port, both of them are, and they have 
great competition, and what they have done with the Alameda 
corridor, which came out of your planning operation, and Long 
Beach's planning operation went on with it, and that is about 
to come on and open on April 12, I believe. And that will be 
copied by almost every port in the United States. We got there 
first, and we got the money first. So glad to hear anything you 
want to say on this.
    Mr. Keller. Thank you, Chairman Horn. Thank you, committee 
members and Congresswoman Millender-McDonald and Congresswoman 
Waters, for giving me the opportunity to appear before you 
today.
    I thank you for the opportunity to discuss the Port of Los 
Angeles and the subject of seaport security as it relates to 
the international maritime traffic into and out of the San 
Pedro Bay every day. As you know, the port is a public entity, 
and we relate to the private businesses. So the model is just a 
little bit different in terms of the partnerships that we bring 
to the table and people with whom we must interact.
    This hearing is to discuss ways that the city of Los 
Angeles Port has prepared for a terrorist attack and improved 
security, what the needs are for the city to facilitate seaport 
security now and in the future and the quality of cooperation 
from Federal agencies.
    Just a little bit of a background before I get into that, 
if I may. The Port of Los Angeles is a remarkable story. In 
1984, after the main channel was deepened to 45 feet, the Port 
of Los Angeles was ranked eighth in the Nation, moving 1.04 
million TEUs, or 20-foot equivalent units, the standard 
maritime container.
    With the help, cooperation and partnership of our customers 
in the Federal Government, the Port of Los Angeles is today an 
environmentally responsible port complex which handles more 
than 5 million containers in a year, while creating hundreds of 
thousands of jobs, not only in our region but across the 
Nation. Together, the two Ports of Los Angeles and Long Beach 
ship roughly 35 percent of the Nation's water trade.
    Last year's total of more than 5 million containers marked 
a national record in this growth has been particularly 
important because the rest of the Nation and the State of 
California experienced a dramatic economic downturn several 
times during that period. We are in the midst of an incredible 
construction activity, as you pointed out, Congressman, as we 
prepare for the challenges and opportunities of the future. The 
Alameda corridor will, as you say--the first phase of the 
almost 500-acre sea/land terminal opens mid-year.
    However, the events of September 11, 2001 have shifted our 
focus from efficiency to security, while at the same time 
continuing the through-put which is so important to our 
Nation's and region's economy. Led by our port police force, 
our response was immediate as we came down with various law 
enforcement officials as well as the U.S. Coast Guard, U.S. 
Customs, FBI, INS, other Federal agencies and Ms. Stanley took 
care of the city.
    Our national crisis has mandated security precautions and 
permanent changes in how we do our business. This is a new day 
with enhanced security standards for our maritime community. We 
have experienced only slight delays caused by understandable 
security measures, but commerce has continued unabated.
    Since September 11th, the Port of Los Angeles has had in 
place 12-hour shifts for port police, although we have begun 
cutting that back just a bit; two patrol vessels on the water 
at any given time, increased fixed post security in the cruise 
passenger terminal; the addition of two explosive detection 
canines; increased liaison with various Federal, State and 
local law enforcement agencies, without whom the mission would 
be impossible; regular dive inspections of passenger terminal, 
tank vessels and other sensitive areas of the port; 
establishment of a joint port police/U.S. Coast Guard/Sea 
Marshall program for incoming and outgoing vessels, and that 
includes all passenger vessels; increase inspection of truck 
traffic; temporary placement of security barriers in key 
facilities; increased security officer protection in port 
facilities and support to various legislative, industrial and 
neighborhood communities on port security matters. The costs of 
the first year are estimated at $1.5 million to $2 million.
    The city of Los Angeles and Mayor James Hahn have taken the 
lead in establishing a Port Security Task Force to look at the 
San Pedro Bay Port to evaluate needs, challenges and 
opportunities for providing more secure ports. In our open 
society, the challenge is to provide security yet to 
effectively facilitate commerce and traffic. Our future 
security needs offer increased cooperation and support for 
Federal, State and local government bodies and agencies.
    Mayor Hahn's Port Security Task Force is looking into how 
we can more closely monitor who and what enters our country 
through our seaports. Securing our borders and our seaports is 
vital to the protection of the United States. This task force 
has brought together executive level participation of local, 
State and Federal agencies, including the Coast Guard, Customs, 
FBI and INS, along with local and national police forces, 
allowing the quick resolution of issues, enhanced security and 
increased cooperation among all the agencies. We believe it is 
a model for developing the outstanding the cooperation to 
protect our vital resources, and yet more must be done.
    Some other areas of port security we would like to put on 
the table include development of a waterfront container 
inspectionsite, or CIS, including facilities for involved 
agencies to look at suspect containers within the confines of 
the port; a portwide identification system to control access 
and positively identify all people entering port facilities; 
increase port police personnel; adequately deploy and maintain 
increased operational security and policing functions; 
development of systems and legislation to support the sharing 
of passenger information and crew information for vessels 
arriving in the port; development of a data base and 
legislation to support acquisition and analysis of information 
about persons and products arriving by sea; development of a 
new public relations program to communicate credible terrorist 
threat information to the public and to dispel unsubstantiated 
rumors; development of new technology to adequately inspect 
more shipping containers, both here and abroad; funding for 
improved audio and video surveillance and monitoring systems; 
creation of a secure Internet Web site for law enforcement 
agencies to act as a terrorism warning clearinghouse, and 
establishing a data base and central repository for 
intelligence that is currently being collected by several 
Federal and State resources.
    It is anticipated that these enhancements for port security 
in the Port of Los Angeles will cost $36.1 million in one-time 
expenditures. Because of all these factors and the new 
vulnerability, it is imperative that we concentrate on 
maintaining and enhancing security awareness of our maritime 
environment. We also strive to encourage more open information 
sharing, and I have said this before, among local, State and 
Federal law enforcement agencies in order to be better prepared 
to fight terrorism as it occurs. I am pleased to say that the 
Mayor's task force is making important strides in this area.
    I want to also say that it is very important that the ACE 
Customs computer system is fully funded an in operation. It is 
an invaluable tool in spotting the right containers and the 
right people to look at them. I also can't praise highly enough 
the job being done by the U.S. Coast Guard and Captain Holmes. 
The cooperation of all the Federal agencies has been 
instrumental in our effective response to date to September 
11th and the continuing operation.
    We must continue to work hard to be successful. We welcome 
new opportunities. While we are proud of our record and 
accomplishments over the decade, we know that we are constantly 
being challenged and will continue to be challenged by 
tomorrow's security needs. Thank you for the opportunity to 
share this information.
    Mr. Horn. Well, thank you very much, and I wish you well. 
You are in a strategic situation, and so is our Nation and our 
economy.
    So let me start in with Mr. Tait on a couple of questions. 
You talked about alternative sources of the water. Would that 
include the desalinization?
    Mr. Tait. Absolutely.
    Mr. Horn. And we are trying to have that happen in Long 
Beach.
    Mr. Tait. Yes.
    Mr. Horn. And anything you can do to be helpful, we 
obviously would appreciate, because it has got to complement. 
Israel did it 30, 40 years ago, and I don't know if they are 
still doing it, but I happened to be there when the Sharon 
election was, and I chatted with him for an hour, and he was in 
this desalinization again. And when you look at the Jordan 
River, there is not much water coming down there, so that big 
ocean is very important.
    How about wetlands, would you put that in the resource for 
water?
    Mr. Tait. Actually, our approach to wetlands is two-fold. 
No. 1, the wetlands have often offset some of the need to 
actually use that wetland water because we have been able to 
use an adjoining basis, something in the near vicinity. So we 
really haven't planned on using wetlands water. That gets into 
another topic of watershed protection, and as you know, we have 
spent many, many dollars protecting the watershed so that when 
the water does come into an impoundment, and reservoir, such as 
Diamond Valley Lake, that the water remains pristine until we 
receive it in our treatment plants, thus the lower cost to 
treat the water because it was already in good quality when we 
received it. So watershed protection and wetlands improvements 
are two parts of our planning process.
    Mr. Horn. Well, that is a good idea, certainly, for the 
reservoirs we need upstream to store that, and I have got a 
great program for you. It is known as the Seretis Wetland, so 
anything you can do to get that moving we would appreciate 
that.
    Mr. Tait. OK.
    Mr. Horn. So let me ask you on--well, let me ask you 
first--have Ms. Dalton say what are we missing, anything today 
on this panel? And then we can go to questions from my 
colleagues.
    Ms. Dalton. I think the panel has very comprehensively 
covered some of the issues that are present here in California 
as well as in all of the Nation and the resources that need to 
be protected, and highlighting the importance of planning, 
integration of our resources and communication.
    Mr. Horn. Very good. Now we will go with 5 minutes down the 
line.
    Ms. Watson. Yes. Very quickly, I want to commend Terry 
Harbour on this report, your testimony, because not only do you 
make a request but you have the dollars assigned to it. Mr. 
Chair, you have got a lot of work to do. As I understand, Long 
Beach is the largest city in the State of California that does 
not have a Hazardous Material Emergency Response Team. And I 
don't know where the funding will come for that, but my 
question is, and this can go to Mr. Harbour and Mr. Keller, 
maybe the next attack is on cruise ships to send a message. You 
know we had first with the planes, now the cruise ships, and 
can I hear comments from the two of you as to what we are doing 
in terms of protecting our cruise ships that go out of the 
ports?
    Mr. Harbour. I can tell you for Long Beach right now we 
don't have any cruise ships, but as you know, by the end of 
next year Carnival Cruise Lines will be docking at the stern of 
the Queen Mary, so it is one of the things that we are going to 
need to deal with. To my knowledge, we haven't identified it. I 
am sure L.A. is an expert at it, and I would like to refer that 
to Mr. Keller.
    Mr. Keller. Congresswoman Watson, that is a very good 
question. We believe the human vulnerabilities should be placed 
on an even higher plane than goods and property, and 
immediately after September 11th the bookings on the cruise 
ships dropped about 50 to 60 percent of what had been 
anticipated. We immediately went to work with what is called an 
early version of the Sea Marshall Program. And that meant we 
put armed guards on every arriving and departing ship who were 
then put on with our pilot boats or taken off with our pilot 
boats. What that meant was that when the guards were on board 
they secured the navigation space of the bridge, the engine 
room and the communication center of the ship and talked to the 
officers and crew to make sure that there was no suspicious 
activity going on.
    When the ships are in port, we have either Coast Guard 
boats or Port Police boats alongside 24/7 to make sure that no 
one approaches that boat. The boats are escorted in with an 
armed Coast Guard cutter to make sure that no suspicious boats 
approach the ship to do harm. We have purchased two explosive 
sniffing dogs to run over the top of all the luggage that is 
being put on the ship. As you know, unlike an airliner, we give 
the passengers their luggage back. We put in magnetometers so 
that all the crew and passengers are screened going in, and we 
have secured the area in which the supplies, the food, any 
other necessary supplies for the ship are inspected box by box 
to be sure that nothing is going on that ship that doesn't 
belong.
    I am happy to report that as a result of these activities, 
passenger acceptance has been very, very high, and the booking 
ratio has risen almost to 90 percent now, because people 
consider this a safe vacation.
    Ms. Watson. Very good. I have one more question, Mr. Chair, 
and that is for Mr. Tait. In your testimony, you talked about 
alternative water supplies, and my concern now it looks like 
the bottled water would be available, but is it possible to 
require homes to have some kind of alternative water supplier? 
Is there any kind of equipment that is self-safe in terms of 
water supply? That is of a big concern to us at this time, and 
I don't know if Brita could sift out whatever the bioterrorism 
organism might be. Is it a water system? Is there anything that 
could help? You know, smoke alarms for fire. Is there anything 
we can do for people in their own homes?
    Mr. Tait. Point-of-use devices have always been used for 
what I would call elementary or minor filtration and treatment. 
They are definitely not the solution. That is why Metropolitan 
is promoting maybe a joint approach with bottler and suppliers 
to take Metropolitan water, have those waters bottled and 
stored in strategic areas. We have five treatment plants 
throughout the southern California metropolitan area in various 
counties, and so if you were to take those bottled supplies of 
our own supply after it is treated and have those available for 
the communities in the event of some kind of an attack, you 
would raise the comfort level of the folks who are looking for 
an alternative.
    Ms. Watson. We had gone through a very devastating 
earthquake in 1994 and we couldn't get the supplies to the 
people. I came down here to City Hall and they said, ``Get a 
guy, find somebody with a metal hat on and stop him.'' So at 
the point of use, is there anything that can be done by the 
residents to purify water in case our highways are destroyed, 
the vehicles that transport are also affected? Is there 
anything that we can do in our homes?
    Mr. Tait. Sure. Point-of-use devices are effective. 
However, it would really depend on what type of contaminant it 
is. And if you also look in my testimony, partnering with DOD 
on what those list of contaminants are that we are not privy to 
right now, that confidential list, would help us better plan. 
Remember when there are earthquakes or things of that nature 
that really knock out infrastructure, you are really talking 
about just simple organics, dirt, those type of things in the 
water that you would either take care of through boiling or 
through point-of-use devices. But either way, again, point-of-
use devices are still just that elementary treatment level, so 
that is really not a solution, an overall solution.
    Ms. Watson. Well, it would be very helpful if you could 
supply us, all of our offices, with a list of the point-of-use 
devices that could be effective. I know it is elementary, but I 
am thinking about transportation systems, how do we convey and 
transport if our roads are knocked out? And I don't put any of 
that past the terrorists at this time, so we need to look at 
every option we have.
    With that, thank you so much, Mr. Chair, and thank you. I 
think all of you have done an outstanding job in bringing us up 
to date. We are going to depend on you providing us with 
information that we cannot get out of Washington, DC. So we 
will be sure to followup with you, to call you so that we can 
instruct our constituents as they call in on a daily basis. We 
want to give them a better comfort level than they have now. So 
thank you very much for holding the hearing.
    Mr. Horn. Well, thank you. Thank you. We have the 
gentlewoman from Los Angeles County and the State of 
California, and that is Ms. Millender-McDonald.
    Ms. Millender-McDonald. My goodness, Mr. Chairman. Again, 
thank you so much for your leadership on this hearing. You have 
brought us a tremendous set of panelists, many of whom I have 
had the pleasure of talking with for the congressional 
oversight hearing on water with Congressman Ken Talbert, and so 
we have had a lot of the issues that you have presented to us 
today through that hearing. And also the oversight hearing that 
we had, the congressional oversight hearing down at the ports 
with Congressman Mark Souder.
    And so with that, I mean all of you I have heard from you. 
Mr. Stanley and all of you have incredible testimony. The Chief 
Harbour, I have not heard from you, but I have heard from your 
deputies and others, and you did the right thing to present us 
with your testimony and dollar figures with it, because 
otherwise we would not have known to what extent your requests 
were and the amount of money.
    I would simply say to all of you that we recognize that a 
lot of you had to go into your budgets to put together a type 
of emergency program, given September 11th, and what this 
Federal Government can do is perhaps not reimburse you but 
further give you the funding that is necessary to secure your 
various bases that you have already spent of your own budget 
dollars to help us in the crisis of September 11th. So I 
applaud you on that, and, Mr. Chairman, I do know, in talking 
with the Port of Long Beach folks who came to Washington a 
couple of weeks ago, they have spent an incredible amount of 
their own budget resources to help us safeguard the ports. If 
it is nothing else, we should try to seek funding we can to 
help all of these fine folks with in terms of not repaying but 
to further the preparation of emergency crisis.
    With that, again, Mr. Chairman, I will submit my statement 
for the record. I have heard from these fine groups of people, 
and thank you so much for this hearing. I am going to have to 
tip out
because of other commitments, but I thank you again for your 
leadership.
    Mr. Horn. Well, thank you very much for coming, and without 
objection, your document will be put at this point in the 
record.
    [The prepared statement of Hon. Juanita Millender-McDonald 
follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Millender-McDonald. Thank you. Thank you so much.
    Mr. Horn. Well, I share my colleagues sentiments that you 
have done a wonderful job, and there really isn't too much more 
to be said. And I will incorporate Mr. Souder's, and Mr. Keller 
and I have talked about that, and it was very good testimony, 
and we are glad to do it. We have got a lot of ports in this 
State of California, and I know that you and Ms. Bonta said 
that there is about 800--what was it, 8,800 water supplies? Let 
us see? Well, it is a lot, but it isn't in the jurisdiction of 
those of you here in southern California, and I guess what we 
will do is we will find out in San Francisco a few days from 
now and see if they are as well organized as you are.
    So thank you very much, and I am going to thank the people 
that helped put this together, and we have many people to--J. 
Russell George is the staff director and chief counsel for the 
subcommittee. To my left here is the deputy staff director, 
Bonnie Heald. Justin Paulhamus, the majority clerk--where is 
Justin? Is he around? He is working back where he should be, 
right? And Earl Pierce, professional staff member who is not 
here today, but he helped coordinate everyone's testimony.
    And the district staff, Connie Sziebl is in the back with a 
red coat, and she has been the best district director in the 
United States, and everybody agrees to it. And that way we 
don't have to pay her anything. So Ryan Peterson has done a 
wonderful job here with the camera, and he is an intern with us 
in the district office, and Jennifer Hodges is working with 
him. We thank you both for this and hope you aren't an ice 
cube.
    So the city of Los Angeles, a lot of people are to be 
thanked. When we came into the garage this morning, people 
couldn't have been nicer, and usually when you go into some 
government garage, they sort of snarl at you. Not here, they 
are nice, friendly people. And Jim Seeley, of course, you all 
know. He is the key person in Washington on legislation, and 
thank Deputy Mayor Carmel Celo, and you heard from Councilman 
Jack Chois and Denise Sample and Diego Alverez and Dary Gomez 
and Lindsey Watson and Avarcay Diaz. And the court reporter is 
Kathleen Torres, thank you also. It is tough when you have got 
to get everybody's words out in the right way, because we 
depend on it.
    That is it. Thank you. And with that, we are adjourned, and 
we thank you for your testimony.
    [Whereupon, at 1:07 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                                   - 

</pre></body></html>
